<html>
<title> - OPPORTUNITIES FOR MANAGEMENT REFORMS AT THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION</title>
<body><pre>[Senate Hearing 105-46]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 105-46


 
   OPPORTUNITIES FOR MANAGEMENT REFORMS AT THE NATIONAL OCEANIC AND 
                       ATMOSPHERIC ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON OVERSIGHT OF

                 GOVERNMENT MANAGEMENT, RESTRUCTURING,

                      AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               <snowflake>


                        U.S. GOVERNMENT PRINTING OFFICE
 40-458 cc                     WASHINGTON : 1997
_______________________________________________________________________
                For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
SAM BROWNBACK, Kansas                DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
DON NICKLES, Oklahoma                MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                        Ron Utt, Staff Director
      Laurie Rubenstein, Minority Staff Director and Chief Counsel
                      Esmeralda Amos, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Brownback............................................     1

                               WITNESSES
                        Thursday, April 24, 1997

Diana Josephson, Deputy Under Secretary for Oceans and 
  Atmosphere, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce, accompanied by Admiral William 
  Stubblefield, Director, NOAA Corps, and John Carey, Associate 
  Deputy Under Secretary for Oceans and Atmosphere...............     2
Brian Logan, President, Photo Science, Inc., accompanied by John 
  Palatiello, Executive Director, Management Association for 
  Private Photogrammetric Surveyors..............................    16
Kenneth S. Johnson, Chairman, University-National Oceanographic 
  Laboratory System..............................................    20
Joel Myers, President, AccuWeather, Inc..........................    31
Joel Willemssen, Director, Information Resources Management, 
  Accounting and Information Management Division, U.S. General 
  Accounting Office, accompanied by Keith Rhodes, Technical 
  Director, Office of Chief Scientist, U.S. General Accounting 
  Office.........................................................    35

                     Alphabetical List of Witnesses

Johnson, Kenneth S.:
    Testimony....................................................    20
    Prepared statement...........................................    69
Josephson, Diana:
    Testimony....................................................     2
    Prepared statement...........................................    43
Logan, Brian:
    Testimony....................................................    16
    Prepared statement...........................................    60
Myers, Joel:
    Testimony....................................................    31
    Prepared statement...........................................    78
Willemssen, Joel:
    Testimony....................................................    35
    Prepared statement...........................................    91

                                APPENDIX

Prepared statements of witnesses in order of appearance..........    43
Mike Smith, Certified Consulting Meteorologist, President, 
  Weather Data Inc., prepared statement in letter sent to Sen. 
  Brownback, dated April 21, 1997................................   151
John D. Bossler, Rear Admiral (Ret.), NOAA, prepared statement...   154
Will Connelly, Marine Business Development Consultant, Fort 
  Lauderdale, Florida, prepared statement........................   161



                      OPPORTUNITIES FOR MANAGEMENT
                    REFORMS AT THE NATIONAL OCEANIC
                     AND ATMOSPHERIC ADMINISTRATION

                              ----------                              


                        THURSDAY, APRIL 24, 1997

                                   U.S. Senate,    
                         Subcommittee on Oversight of      
                  Government Management, Restructuring,    
                            and the District of Columbia,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 12:40 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senator Brownback.
    Staff Present: Ron Utt, Staff Director, and Esmeralda M. 
Amos, Chief Clerk.

             OPENING STATEMENT OF SENATOR BROWNBACK

    Senator Brownback. I will call the hearing to session, and 
thank you all for joining me. I apologize for being a few 
minutes late. We have another little matter going on today 
called a Chemical Weapons Convention and some pretty big 
hearings on that and discussions going on, which there may be 
some breaks taking place during the hearing with votes 
scheduled for this afternoon. So we may have to take 
intermittent recesses for that.
    This is the fourth in a series of hearings on the 
Department of Commerce. In our last hearing, we explored the 
role of the Department of Commerce in Federal statistical 
gathering, analysis, and dissemination, to consider 
opportunities for reform and consolidation. The purpose of 
today's hearing, though, will be to look at the National 
Oceanic and Atmospheric Administration, NOAA. More precisely, 
we hope to learn more about the Federal surveying and mapping, 
the NOAA fleet, and the National Weather Service. Critics have 
argued for years that NOAA performs functions that could be 
better handled by the private sector or consolidated elsewhere 
within the government. For instance, more than 100 private 
companies in the United States compete with the National 
Weather Service to prepare and disseminate weather forecasts to 
the public and businesses.
    There is also the issue of the NOAA fleet, which is an 
aging fleet. There has been a lot of documentation about its 
needs, and whether or not the Congress is going to fund those 
needs and what options will take place and what options there 
are for private sector involvement in providing that sort of 
service that the fleet currently does. We will have three 
panels on this.
    The first panel is the Hon. Diana Josephson, Deputy Under 
Secretary for Oceans and Atmosphere, National Oceanic and 
Atmospheric Administration. Ms. Josephson, I appreciate very 
much your coming up to the Subcommittee to testify. I like to 
treat these as informal sessions as much as possible so that if 
you would like to present your written statement, I am happy to 
have that. If you want to read off of it, that is fine. If you 
would rather just get right down to the nub, as we say, on it, 
and say what your thoughts and opinions are on NOAA, 
particularly the NOAA fleet, particularly the possibilities of 
privatizing some of these services, that would be most 
appreciated, and then we can have an exchange.
    At any rate, the decision is yours and so is the floor. 
Thank you for joining us.

  TESTIMONY OF DIANA JOSEPHSON,\1\ DEPUTY UNDER SECRETARY FOR 
    OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC 
  ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE, ACCOMPANIED BY 
 ADMIRAL WILLIAM STUBBLEFIELD, DIRECTOR, NOAA CORPS, AND JOHN 
    CAREY, ASSOCIATE DEPUTY UNDER SECRETARY FOR OCEANS AND 
                           ATMOSPHERE

    Ms. Josephson. Thank you. What I would like to do is submit 
my written testimony for the record, and I have a brief oral 
statement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Josephson and other material 
appears on page 43 in the Appendix.
---------------------------------------------------------------------------
    Senator Brownback. It will be submitted for the record and 
put in the record.
    Ms. Josephson. And then we can engage in discussion. Thank 
you for the opportunity to appear before you today to present 
highlights of the National Oceanic and Atmospheric 
Administration's management reforms and major system 
acquisition programs. First, I would like to give you a few 
examples of the many steps NOAA has taken to improve agency 
management, streamline operations, and save money.
    First, NOAA has implemented a strategic planning process 
which defines and validates our business activities, guides the 
development of operating plans and forms the basis for 
management decisions. NOAA holds managers accountable for 
results and uses performance measures to validate progress.
    Second, by 1999, our workforce will be reduced by 14 
percent from 1993 levels by eliminating 2,061 full-time 
equivalent positions. Three, we are working with the Department 
of Defense to merge civilian and defense weather satellites for 
savings of $1.7 billion over the lifetime of the program 
through 2018. Fourth, we no longer provide specialized weather 
services including agriculture, fruit frost, fire weather for 
non-Federal non-wildfire land management and specialized event 
forecasts. Fifth, NOAA has eliminated or streamlined 20 percent 
of its regulations. And finally, we are downsizing the NOAA 
Corps to 299 officers by September 30, 1997, and plan to 
convert these from a uniformed service to ci- 
vilian employees resulting in savings to the Federal 
Government. This legislation is currently under review by the 
Office of Management and Budget and will be forwarded to the 
Congress shortly.
    Second, I would like to focus on two areas that you 
mentioned in your opening statement: Weather Service 
modernization and the NOAA fleet. The Weather Service is two-
thirds of the way through a $4.5 billion modernization and 
restructuring effort that is deploying Next Generation Weather 
Radars, advanced geostationary satellites, automated service 
observing systems, and a new computer and communication system, 
the so-called AWIPS. This restructuring streamlines the Weather 
Service from over 300 weather offices to 119 weather forecast 
offices and 13 river forecast centers.
    The Nation is already experiencing the benefits brought 
about by the modernization. For example, next generation 
Doppler radars have improved the average lead time for tornado 
warnings from zero to 2 minutes prior to modernization to about 
12 minutes in 1996. A 1992 study by the National Institute of 
Standards and Technology found that every dollar spent on 
weather service modernization provides $8 in benefits to 
American taxpayers.
    The final component of the modernization is AWIPS. As 
expected, development of this complex new system has provided 
many challenges to management. The AWIPS program received 
approval on February 12 from the Secretary of Commerce to begin 
limited deployment. This decision authorizes the acquisition 
and installation of 21 systems across the Nation. Once the 
AWIPS Build three software, which is the third out of six 
builds in total, is complete and operationally tested and 
evaluated this fall, NOAA will seek approval for full 
production decision in December 1997.
    Weather and climate services are provided to the public and 
industry through a unique partnership between the Weather 
Service and private meteorological sector. The Weather Service 
will continue to focus on its basic mission to provide 
forecasts and warnings for the public safety, and the private 
sector will continue disseminating forecasts and tailoring 
basic information for business uses. Since forecasts must be 
developed in order to provide warnings, we feel it is our 
responsibility to release them to the general public as well as 
the warnings.
    I would like to respond briefly to a recently expressed GAO 
concern that NOAA is unprepared to develop the Next Generation 
Geostationary Satellite System. In order to begin a GOES-Next 
generation program, two prerequisite efforts must be completed 
within NOAA. First, requirements for future geostationary 
observations must be validated jointly by the Weather Service 
and our satellite service. Second, NOAA must assess whether 
available and emerging technologies can meet NOAA's technical 
and economic requirements. Both of these assessments are 
underway and will be completed by the end of 1998.
    On fleet replacement and modernization, NOAA's philosophy 
is that the most cost effective acquisition of marine data is 
likely to be provided by a mix of charter vessels, contracts 
for data, university ships and NOAA ships. From our limited 
experience to date, we believe the jury is still out on whether 
the private sector can provide the same services at less cost. 
Due to NOAA's internal cost-cutting efforts, our ships may 
operate at comparable or cheaper costs than commercial vessels 
over the next 7 to 10 years of their useful lives.
    NOAA is committed to expanding the use of private 
contractors and cooperative arrangements with universities for 
ship support. We recently laid up two hydrographic ships and 
made $3 million in operating funds available for hydrographic 
contracting. These funds supplement $5.5 million in program 
funds which have also been redirected for private sector 
hydrographic contracting. NOAA is also working with UNOLS to 
develop a cooperative memorandum of understanding that will 
coordinate use of NOAA research vessels, in particular the new 
Ronald H. Brown. In addition, NOAA intends to acquire up to 
half a year of ship time on UNOLS vessels.
    Before I conclude, let me say that we consider IG 
recommendations and GAO reports to be an important management 
tool and are committed to using the audit process to strengthen 
our programs. Mr. Chairman, this completes my remarks. I will 
be glad to answer any questions you may have.
    Senator Brownback. Thank you very much. Appreciate very 
much your coming here and testifying and being willing to make 
your statements regarding NOAA. Let me look particularly at the 
fleet because that is the area that has drawn the most interest 
by a number of people. As I understand, the fleet is--I hate 
these numbers when I get--approximately 25 ships. How many 
ships are in the fleet?
    Ms. Josephson. Fifteen.
    Senator Brownback. You have 15 ships that are actually in 
the fleet?
    Ms. Josephson. Correct.
    Senator Brownback. OK. Did you decommission two ships so 
that you could take some of those funds for privatizing and 
outsourcing that work?
    Ms. Josephson. Correct.
    Senator Brownback. OK. So you had 17 and now you have, or 
you had 15 and you just decommissioned two that----
    Ms. Josephson. Right. We had 17 and we----
    Admiral Stubblefield. We had 24 at one time.
    Ms. Josephson. We have decommissioned down to 15.
    Senator Brownback. So you have 15 in operation today?
    Ms. Josephson. Correct.
    Senator Brownback. OK. What is the useful life left on 
these 15 ships? Can you give me the range of what they are on 
these ships?
    Ms. Josephson. Two to 3 years to 10.
    Admiral Stubblefield. No, actually probably 5 to 7 years up 
to 30 years.
    Ms. Josephson. If you recondition.
    Admiral Stubblefield. Well, we have two new ships.
    Ms. Josephson. I was forgetting the two new ships. We have 
two new ships.
    Admiral Stubblefield. Up to 30 years plus.
    Ms. Josephson. Right.
    Senator Brownback. OK. So you have two ships, and there is 
a 30-year life expectancy left with, and the remaining would be 
a 5- to 7-year life expectancy?
    Ms. Josephson. Five to 10.
    Senator Brownback. OK. Depending on how well they age and 
how much they are used?
    Ms. Josephson. How old they are. The conditions they are 
used, how we maintain them, whether we do a repair to extend 
their useful life.
    Senator Brownback. I do not mean to trap you on any of 
these questions, but I have some technical questions. I look at 
this and I want to know what in the world is this. This does 
not sound very good. So if you need to respond to me later or 
get something from somebody else, please feel free to do it. I 
understand that your daily cost of operation of these ships is 
more than $21,000 a day. That is the average cost of using one 
of your ships. Now do you know if that is anywhere close to 
approximate? Would you disagree or would you agree with that 
number?
    Ms. Josephson. I do not know the answer to that, and it 
would vary from ship to ship because we have ships that are in 
the 100-foot length to the ships in the 250-270-foot length, 
and obviously the cost to operate them will vary widely.
    Admiral Stubblefield. I can answer that.
    Senator Brownback. I am sorry. Do you mind, Ms. Josephson, 
if he comes up and states his name for the record so that we 
can get that testimony?
    Admiral Stubblefield. Certainly. My name is William 
Stubblefield. I am the director of NOAA Corps operation in 
charge of the ships and aircraft.
    Senator Brownback. Good. Thank you. Mr. Stubblefield?
    Admiral Stubblefield. Correct.
    Senator Brownback. Thank you.
    Admiral Stubblefield. The $21,000 would be on the very 
upper end of our ship operation, and that would be with 
operational costs and overhead. The majority of our ships would 
be in the price range of anywhere from $8 or $9,000 per day up 
to the $20-$21,000, but I have to emphasize that includes all 
costs, full costs.
    Ms. Josephson. Would you detail that?
    Admiral Stubblefield. Yes. The smaller range vessels, the 
smallest size vessels would be in the $6 to $7,000 range. Our 
fishery ships generally cost somewhere between $8 to $15,000 
per day, depending on size.
    Senator Brownback. Ms. Josephson, if I could----
    Ms. Josephson. I was just wondering what that covered when 
you say whole cost?
    Admiral Stubblefield. I thought I said it covers the 
maintenance costs, the fuel, the personnel, and all the 
associated overhead.
    Senator Brownback. OK. Ms. Josephson, when you look at 
sending a ship out on mission or when you are first developing 
your budgets, do you go out and contact private groups or 
university groups that have ships that can provide the type of 
service you are looking for and ask them to bid on the type of 
work that you are planning for that year or----
    Ms. Josephson. No.
    Senator Brownback [continuing]. What is your process?
    Ms. Josephson. Our process is that we generally look a 
couple of years ahead. We do a rotating 2-year forward plan, 
but I would emphasize that we own these ships. They are fully 
amortized at the moment, so we are not paying any capital 
costs. It is like owning your own car once you pay the monthly 
payments. So our philosophy is to use our ships for the 
remainder of their useful lives because that is the most cost 
effective approach for the government.
    Senator Brownback. Have you done that study internally?
    Ms. Josephson. Done what study internally?
    Senator Brownback. To determine that this is the most cost 
effective way?
    Ms. Josephson. We have done a study. We were asked by the 
Congress to do a study, I guess, in the fall of 1995, which we 
submitted in the spring of 1996.
    Senator Brownback. And you went out and contacted----
    Ms. Josephson. We had a contractor who went out and 
contacted people in industry to ask them about the availability 
of their vessels and to give us cost information, and I would 
like to ask Mr. Carey to respond to that in more detail.
    Senator Brownback. You have to state your name for the 
record, please.
    Mr. Carey. Yes. My name is John Carey. I am the Associate 
Deputy Under Secretary for Oceans and Atmosphere.
    Senator Brownback. Welcome.
    Mr. Carey. Thank you, sir. I believe your question was had 
we done a study, and, yes, the answer is we did do a study at 
the request of the Senate Appropriations Committee which was 
submitted to the Congress, and we certainly would be happy to 
provide a copy of that for the Committee to----
    Senator Brownback. Good.
    Mr. Carey [continuing]. To review.\1\
---------------------------------------------------------------------------
    \1\ Information provided by Mr. Carey, the study ``NOAA Fleet 
Assessment: Report to the Senate Appropriations Committee, Subcommittee 
on Commerce, Justice, and State,'' December 15, 1995 is retained in the 
Subcommittee files.
---------------------------------------------------------------------------
    Senator Brownback. If you would, we would appreciate your 
doing that.
    Mr. Carey. And in answer specifically to your question, as 
part of that study, we did engage various contractors who went 
out to survey the hydrographic community, the fisheries 
community, and the research community, both on the question of 
availability of vessels and also to solicit information on cost 
data, and all of the details of that are included in that 
study.
    Senator Brownback. Now, the Commerce Department's Inspector 
General, and this should come as no surprise to you, strongly 
believes NOAA's billion dollar modernization plan for these 
ships should be terminated, and he says, and I just want to 
quote this portion to you, ``Because private sector and other 
Federal ships can provide improved services at reduced cost, 
there is no reason to make further capital investment in NOAA's 
fleet.'' And the IG actually recommends using the modernization 
funds to pay for the costs associated with decommissioning the 
fleet. Are you familiar with that statement from the IG?
    Ms. Josephson. Yes, we are.
    Senator Brownback. And would you care to respond directly 
to the Commerce Department's Inspector General point about 
that?
    Ms. Josephson. We believe that the most cost effective 
approach to continue our ship assets is in each case when the 
time comes to replace a ship to have an open procurement where 
people can bid to have the government construct the ship, they 
can bid to lease the ship to us, they can bid to take an 
existing ship and modify it to meet our requirements. At that 
time, we will look at the best deal for the government, what is 
the most cost effective deal. As I mentioned before, we 
currently own our ships. The government has paid for them. They 
are fully amortized. We are not paying any capital expenses, 
and so we believe it is cost effective for us to continue to 
use those ships through the remainder of their useful lives.
    Senator Brownback. Even though the upper end figure is 
$21,000 per day to operate some of your ships?
    Ms. Josephson. Yes, but this is 300----
    Admiral Stubblefield. That is a 274-foot vessel. That is 
the same range as what the university fleet would be as well.
    Ms. Josephson. These are identical ships.
    Admiral Stubblefield. These are identical ships. I would 
like to say there is a uniqueness factor as well. The fishery 
vessels, for example, we require both a biomass sampling as 
well as environmental sampling done simultaneously. We are the 
only ships in the domestic market that can do this combined 
sampling. The university community, as Dr. Johnson will testify 
later, I believe, will say that the university ships cannot 
trawl. The commercial sector vessels, which can trawl, do not 
have the berthing facilities, do not have the scientific space, 
nor do they have some of the sophisticated equipment hull-
mounted that we need for the environmental studies.
    There are no vessels that we know of that we have been able 
to find that can do this combined operation at this point in 
time.
    Ms. Josephson. Mr. Chairman, maybe it would be helpful just 
to step back a moment and point out that we do not have a fleet 
which is homogeneous. We basically have four fleets. We have a 
fleet of two vessels which are equipped to go do deep ocean 
oceanography. These are bigger ships, and they are both new 
ships. The government has just paid for them. One came into 
service last year and one is coming into service in July. We 
also do coastal research, and we have one small vessel, which 
we are planning to use for the rest of its useful life, and 
then we plan to switch to chartering for that vessel.
    We have a fleet of three hydrographic vessels doing 
nautical charting, which are very different. Each of these 
types of fleets is very different. And then we have at the 
moment nine fishery vessels. We plan to use them for their 
useful life. Six of them are of the nature that Admiral 
Stubblefield just mentioned. They are uniquely configured to do 
the basic research stock assessment work which we do every year 
as the foundation for the fishery management plans, and they 
have to be able to trawl very long and very heavy nets behind 
them and then take the biomass which is caught and move it 
through a laboratory facility where it is counted, dissected, 
and analyzed, and at the same time the ship is equipped to take 
oceanographic conditions simultaneously about the salinity, the 
quality of the water, so that we match the biomass with the 
conditions in which we catch it.
    And we do these surveys every year. This is a 30-year data 
set. We steam down exactly the same track and based on that, we 
assess, have the stock of fish, these particular species, 
changed from last year to this year, and it is upon this 
scientific basis that we perform all our fishery management 
functions. Those ships are not available in the private sector 
and we have a request in the administration's budget this year 
for $2 million to come up with a proposed design for the next 
generation of these vessels, which, as I said before, would be 
procured in an open procurement. These are our requirements and 
bid to us what you think would be your preferred way of doing 
business with us. We do not have a predisposition to continue 
to own ships over the long-run. We want to get the best deal 
for the government.
    Senator Brownback. Ms. Josephson, have you talked with the 
Inspector General of the Commerce Department about the 
Inspector General's position regarding the NOAA fleet 
organization?
    Ms. Josephson. We have.
    Senator Brownback. And you just think the IG is wrong?
    Ms. Josephson. Yes.
    Senator Brownback. And you think they operate off of what? 
Flawed data or just the perception that they ought to privatize 
and so, therefore, they are going to do it?
    Ms. Josephson. I do not want to characterize the basis of 
his opinions.
    Senator Brownback. GAO has looked into this as well and 
comes to similar types of conclusions as the IG does. Are they 
inaccurate too?
    Ms. Josephson. Could you refresh my recollection of what 
the GAO's statements are? I just do not remember off hand.
    Admiral Stubblefield. If I may, Senator, there was a GAO--
--
    Senator Brownback. Let me get to her----
    Admiral Stubblefield. Pardon me.
    Senator Brownback [continuing]. Because we ought to be fair 
about this. Let us cite the study here, what we are looking at. 
And it would be fair for us to provide that to you. GAO made a 
similar comparison and reported--this is in the 1994 study, and 
we should get that to her so you can have a chance to talk with 
the GAO as well about this. This was a 1994 study. Their citing 
on this, Ms. Josephson, is that while NOAA's fleet is 
comparatively expensive to operate, the Commerce Department's 
IG calculated that for certain large oceanic vessels, NOAA's 
average daily cost is over 60 percent higher than the average 
cost of similar University National Laboratory Systems vessels. 
The GAO made a similar comparison report at a 25 percent cost 
difference in 1994.
    Ms. Josephson. Well, they are talking now about our bigger 
ships, and at that time, we had older, more expensive vessels, 
which have now been laid up. As I mentioned, we have just 
acquired two new, much more efficient, research vessels in the 
fleet plus we have had a major streamlining effort. I mentioned 
that we are going down 14 percent in our employees. The NOAA 
Corps and the associated support staff is part of that 
reduction. So they have been streamlining. They have had an 
intensive effort to become more efficient in their maintenance 
operations. We have been engaged in a lot of activity since 
1994 to streamline the fleet and to make it more efficient.
    Senator Brownback. When was the last time, the department, 
not the IG, or the GAO, but the Department of Commerce itself 
or NOAA did a head-to-head comparison of whether or not they 
ought to contract out for these services with the private 
sector?
    Ms. Josephson. Well, let me explain what we are doing. In 
the case of Ka'Imimonana, which is one of the new ships which 
was entered into service last year, we are in the middle of an 
A-76 cost comparison to give us a data point on are we more 
efficient or are we not more efficient. We are in the middle of 
this right now. We will be issuing an RFP to industry, which 
the NOAA Corps will respond to also, as part of the A-76 
process. So by next spring, we will have a real life cost 
comparison between one of our ships at least and the private 
sector, whether we operate them more effectively than the 
private sector.
    We are also in the case of UNOLS, as was mentioned in my 
testimony, in the process of entering into a memorandum of 
agreement with them in which our ship-time is made available to 
UNOLS in return for ship-time on other vessels. Our ship will 
be stationed in the Atlantic. They have ships in the Pacific. 
Obviously, it is much more efficient for us to trade times so 
each of us do not steam through the Panama Canal all the time 
and waste a lot of energy dead-ending, I think they call it.
    We also have some data points in our contracting for 
hydrographic services. Long Island Sound was our first 
hydrographic contract. This contract appeared cost effective on 
its face, but the contractor told us that it actually cost them 
50 percent more to do the survey work than they had calculated 
in their bid. And I have some testimony from the contractor. 
The reason we had to shift this hearing--you were very 
courteous to make it earlier--is because I have to testify in 
the House at 2 o'clock, and in that hearing, this contractor 
has some testimony which I would like to submit to the record 
because it is an actual contractor, and they present their view 
of what it has been like to be a contractor of NOAA's in this 
field.
    Senator Brownback. I appreciate these specific points 
because that is what I want to have. I want specific items 
here.
    Ms. Josephson. Right.
    Senator Brownback. When was the last time you generally 
looked at the entire fleet and said----
    Ms. Josephson. It was 1995.
    Senator Brownback. It was 1995 when you looked at saying, 
OK, we are going to get out of the ship business and----
    Ms. Josephson. We looked at the----
    Senator Brownback [continuing]. And where we are going to 
contract for service, and that was 1995, the study that you did 
on that?
    Ms. Josephson. Yes. We surveyed--in each of the three 
segments: Fisheries, hydrography, and the research segments. We 
surveyed the community to get data. The IG had indicated there 
were available ships out there, for example, fisheries vessels. 
We surveyed the fishing community. They have fishing vessels 
available in the winter when they are not out fishing, but we 
need to go and do this research work when they are fishing 
because of the timing of our historic data sets. They are timed 
for the summer months. Also, we did charter a backfill while we 
had one of our fishery vessels being repaired. We did charter a 
fisheries vessel, but we had people living in the fish hold.
    The fishery ships are designed to catch fish and to carry 
large amounts of fish in holds. They are unstable unless you 
have ballast in those holds because they are not designed for 
our kind of work. We need a ship on which can efficiently bring 
in the nets, take the biomass out, and immediately pass it 
through a laboratory facility and do the analysis and the 
accompanying oceanography. You also have to have berths on 
board for 20 to 30 scientists. How many?
    Admiral Stubblefield. Fifteen to 20 scientists.
    Ms. Josephson. Fifteen to 20 scientists and they have to go 
out for months at a time. So it has to be reasonable living 
conditions for our employees. So living in a hold for months at 
a time, the hold of a fishing vessel, was something we did on a 
temporary basis, but we could not possibly do it over the long-
term. So when we went looking for these charters to replace one 
of our fishing vessels, we did not find anything that was 
available that met the requirements.
    Senator Brownback. Did you also specify in that that we 
might be willing to contract for a period of 5 years so that 
people could----
    Ms. Josephson. If we did contract, we would like to 
contract for longer than 5 years, and one of my requests to the 
House----
    Senator Brownback. So you are saying that even once you 
posed that to them, that the industry was not willing to comply 
with your request and saying we do not have anything we could 
even retrofit to make it available to you?
    Ms. Josephson. In the particular case of the people on the 
fishing hold, this was a shorter term charter, but the AMLR 
charter----
    Admiral Stubblefield. Yes. The one that Ms. Josephson is 
referring to was a 1-year backfill charter. It was not a longer 
charter. More recently we have chartered for a fishery work in 
Antarctica, and we had a 1-year with an option for additional 4 
years. And both the backfill charter I am referring to and the 
Antarctica, the backfill charter, we did not find any domestic 
vessels that met our minimum requirements. The only vessels we 
found were foreign vessels that met our minimum requirements. 
In the case of the Antarctic charter for both trawling as well 
as environmental studies, the only ones that bid were foreign 
bidders.
    Ms. Josephson. In fact, we chartered with a Russian ship.
    Senator Brownback. May I ask on that? There have been a lot 
of questions raised about that. You chartered with a Russian-
owned ship. Is this the same issue that you are raising here, 
Mr. Stubblefield, on the fish stocks in the Atlantic Ocean?
    Admiral Stubblefield. Well, I am confused, Senator.
    Ms. Josephson. Two different.
    Admiral Stubblefield. We got two different contracts or two 
different charters. One was for a backfill charter for 1 year 
that was in the New England waters.
    Senator Brownback. Which one was with the Russian owned 
ship?
    Admiral Stubblefield. That was in Antarctica.
    Senator Brownback. OK. And your IG was critical of that, I 
believe, saying NOAA failed to explore adequately less 
expensive domestic alternatives such as universities.
    Ms. Josephson. It was an open RFP on which anybody could 
have bid.
    Senator Brownback. I am sorry?
    Ms. Josephson. It was an open RFP, on which anybody was 
free to come in and bid.
    Senator Brownback. Are you familiar with your Inspector 
General's report on that particular topic?
    Admiral Stubblefield. Yes, we are.
    Ms. Josephson. Yes.
    Senator Brownback. Mr. Stubblefield?
    Admiral Stubblefield. Yes, we are.
    Senator Brownback. And you believe them to be inaccurate? 
How do you dispute the IG's statements on this particular 
research vessel and request for survey work where you went with 
the Russian-owned ship?
    Admiral Stubblefield. One of the IG issues was why do we 
not use a university ship. The intent was that we would be 
doing trawling as well as the environmental studies. As it 
turned out, the first year, we did not do the trawling, and the 
university ship in the area could have satisfied the 
environmental aspect very well. But the intent then, and as it 
is now, is to do a combined trawling as well as environmental 
studies. Year two the vessel is doing trawling, and it will do 
trawling for two additional years, if we choose to exercise 
that option.
    Senator Brownback. I am reading from this IG report, which 
I presume you are familiar with.
    Admiral Stubblefield. I am.
    Senator Brownback. But I am catching you some off guard 
so----
    Admiral Stubblefield. It has been awhile.
    Senator Brownback. One of the university laboratory people 
scheduled, the representative stated that until the OIG had 
contacted her in late July 1995, she ``had not heard that the 
Antarctic cruises on the Surveyor would be looking for a 
home.'' I would presume you would regularly contact the 
laboratory or the university community about your needs.
    Admiral Stubblefield. Well, as Ms. Josephson said earlier, 
the NOAA ships conduct three types of missions, a fishery 
mission, this combined trawling and environmental studies, a 
hydrographic mission, and an oceanographic mission. In the case 
of the oceanographic mission, we are in frequent contact with 
the university community. In the case of the hydrographic 
mission, the university community does not normally do 
hydrography. In the case of the fisheries, the university ships 
do not have the capability to trawl, to collect the biomass. 
Since this program was intended to combine both the trawling 
and the environmental, we did not immediately go to the 
university community. But we had informed certain individuals, 
within the university ship community.
    Senator Brownback. I am sorry. When you do not directly go 
to the university community on that, what do you mean by that?
    Admiral Stubblefield. Well, because they do not have the 
capability to trawl.
    Senator Brownback. You do not contact them then?
    Admiral Stubblefield. Not when there is trawling involved.
    Ms. Josephson. Did you not do a CBD announcement?
    Admiral Stubblefield. That is what I was getting up to. But 
we did do a CBD announcement. We sent it out to as broad a base 
as we could have in the United States. That was mostly the 
commercial sector. Informally, we had talked to some 
individuals in the university community, but I do not think we 
talked to the university scheduling group.
    Ms. Josephson. But the basic reason is because we were 
looking for capability that they do not have.
    Senator Brownback. Now who paid for the trawling equipment 
then that was put on the Russian ship?
    Admiral Stubblefield. We paid for some upgrades to the 
Russian ship.
    Senator Brownback. Did that include the trawling equipment?
    Admiral Stubblefield. I, and again, Senator, you are 
catching me off guard. My office was not directly involved with 
those upgrades, but we did pay for some, and I think it did 
involve some of the trawling. Did we put a full-blown trawling 
capability on the ship? Absolutely not. It would have been 
much, much more expensive than the dollars that we contributed.
    Ms. Josephson. Also, ships that trawl have to be designed 
so the hull will withstand the weight of carrying the trawl. So 
if a ship is not designed for that, you cannot ordinarily put a 
trawl capability on without great expense in rebuilding the 
ship. We have looked at that because we had an excess T-AGOS 
vessel, and we looked to see if we could trawl with that ship 
since it might be a more cost effective way of getting a new 
vessel, but had to conclude it was just prohibitively 
expensive. The ship was not designed to trawl.
    Senator Brownback. If I could summarize what I hear you 
saying: You have dropped your fleet down from 24 to 15 ships, 
you are going to as each of these become too old to really do 
the work you want to do appraise then whether to go contract 
out, but I never heard you really say contract. I heard you say 
you might lease so that you would have a long-term lease or 
would you look at contracting for the service that you seek?
    Ms. Josephson. In the case of hydrography, we are 
contracting for data. In the case of research, we need 
platforms on which our scientists go on board. For example, our 
ships carry our fisheries' biologists, our fisheries' 
scientists, to do the fisheries research, and in the case of--
--
    Senator Brownback. Will you contract there then for 
somebody else to operate the ship?
    Ms. Josephson. Yes. There are two issues. Do we own the 
ship or does someone else own it and provide it to us for a 
lease?
    Senator Brownback. Well, but I am trying to get you to 
define--as your lease, do you mean basically like I would lease 
a car?
    Ms. Josephson. Right.
    Senator Brownback. Or what about just saying we are going 
to place our scientists on another ship or look at that as a 
possible option if----
    Ms. Josephson. When we charter a vessel, we do put our 
scientists on another ship.
    Senator Brownback. So you will look at that option then as 
well?
    Ms. Josephson. I think in fisheries right now, as I 
recollect the figures we provided you, we have something like 
534 charter days a year in which we put our fisheries 
scientists on charter vessels. In fact, one-third of our total 
days at sea are currently being handled through charters, two-
thirds on our own ships. So we do a substantial amount of 
chartering right now.
    In the case of hydrography, we are purchasing data. There 
is a capability in the private sector due to the fact that the 
Corps of Engineers, in particular, has requirements for people 
to provide them information about dredging when they dredge new 
passages into ports, new channels into ports, and so on. There 
is a capability in the private sector to do hydrography, and in 
the hydrographic area we are contracting for the data itself. 
In the fisheries area, the capability is within NOAA, so we are 
looking for platforms upon which we can do the science. The 
same is true in the deep ocean oceanography area.
    Senator Brownback. Good. Ms. Josephson, too, you cited the 
1995 study when you looked at the entirety of the fleet.
    Ms. Josephson. Right.
    Senator Brownback. Would you be willing to provide that for 
the record, as well?
    Ms. Josephson. Yes, I think Mr. Carey already offered to do 
that.\1\
---------------------------------------------------------------------------
    \1\ The study ``NOAA Fleet Assessment: Report to the Senate 
Appropriations Committee, Subcommittee on Commerce, Justice, and 
State,'' December 15, 1995 is retained in the Subcommittee files.
---------------------------------------------------------------------------
    Senator Brownback. You would be willing to do that. I want 
to make sure that we get that so that we can look at it. Bottom 
line for me on this, and I know you are doing everything you 
can with the limited resources we have and we have got limited 
resources, and everybody is trying to balance the budget.
    Ms. Josephson. Right.
    Senator Brownback. And it would be nice if we could even 
pay a little bit of the mortgage down for the country. So 
everybody is looking at areas or places that we can save money.
    Ms. Josephson. Right.
    Senator Brownback. And when you have Inspector General 
reports and GAO reports that are citing this as a potentially 
very fruitful area for us, and some may say, look, it is just a 
few million dollars, well, watch your pennies and your dollars 
will grow, as Ben Franklin said, and we are trying to say watch 
your millions and your billions will grow. So we are trying to 
find, and I know you are trying to, too.
    Ms. Josephson. Yes.
    Senator Brownback. We have tried to hold this hearing to 
get as much information about an area that looks really quite 
questioning when you consider those outside reports.
    Ms. Josephson. Well, let me give you an analogy. I think we 
all know that when we buy a car and we make our payments, we 
own it. It is going to be more expensive to give up our car 
which we have paid for, to go and lease an automobile because 
we are going to pay for the management costs and the profit of 
the leasing company. This analogy applies here. Now when we get 
to our current ships, we believe, since the government and the 
taxpayer has paid for them, that it is less expensive to 
continue to own them during their useful lives.
    Now we are open as to who operates them, and as I said, we 
are doing A-76 right now. We are also doing a cost comparison 
with UNOLS. So we are open to having other people operate our 
ships if that proves cost effective.
    Senator Brownback. Or even just selling them to somebody 
else to operate if that proves cost effective.
    Ms. Josephson. Well, we had another data point on that. We 
have a ship which is identical to one of our hydrographic 
vessels, the Fairweather, and we have a report on that which we 
also will submit for the record.\1\
---------------------------------------------------------------------------
    \1\ Report to the Congress--Lease Back of the Fairweather from a 
Private Sector Contractor, submitted by Ms. Josephson appears on page 
145 in the Appendix.
---------------------------------------------------------------------------
    The Fairweather has been laid up, I think, since 1988, and 
a company came to us and said they would be interested in 
taking it from us, refurbishing it, and leasing it back. So we 
did a Request for Information to industry last spring asking 
people to tell us, would they be interested in this vessel, and 
how much would it cost us, give us some range of expense. The 
responses we got showed it would be more expensive for us to 
lease the ship from the private sector than to run the 
identical ship that we have internally. So that is just another 
data point.
    Senator Brownback. Good.
    Ms. Josephson. So, so far, I would say, as I said in my 
testimony, the jury is out. We are very open, but my goal is to 
make the most cost effective decisions for the government. 
NOAA's management's position is that we are open to leasing 
ships or owning them. It just depends for each ship when the 
decision time comes what is the most cost effective decision 
for the government.
    Senator Brownback. And you are open to contracting just for 
the service, not you having to have the lease on the ship then, 
too, which is----
    Ms. Josephson. Now, how would that work? To lease for the 
service?
    Senator Brownback. You have said a third of your 
information is from you contracting for the data.
    Ms. Josephson. No, I did not say that.
    Senator Brownback. That you are contracting.
    Ms. Josephson. No.
    Senator Brownback. OK. So you are not open to that?
    Ms. Josephson. I said we are contracting. A third of our 
days at sea are provided by ships which we charter.
    Senator Brownback. Correct, and so you are contracting for 
this service from that ship? You do not lease that ship then?
    Ms. Josephson. No, those are ships we lease.
    Senator Brownback. OK. Then maybe I am confusing you with 
terminology.
    Ms. Josephson. Yes, I think we are probably talking past 
each other.
    Senator Brownback. What I am interested in, and I am not 
probably using the correct terminology, is that you do not have 
to own or lease the ship? You are interested in data in many 
cases, some cases not. But in many cases, you are just 
interested in data. You do not have to own that ship? You do 
not have to long-term lease that ship? You want to get the 
data.
    Ms. Josephson. Correct.
    Senator Brownback. And you will be willing or open to 
contract for the data.
    Ms. Josephson. In the case of hydrography that is correct. 
It is not correct in the case of fisheries or deep ocean 
oceanography. In these areas, we have the U.S. experts on our 
staff doing the science. This is what we are funded to do. In 
the case of fisheries, the data is used as the basis for the 
governmental regulatory function. So I believe that in that 
case, there might be some legal questions as to whether we 
could get data from those who might have a potential conflict 
of interest or an interest in the regulatory outcome.
    Senator Brownback. Have you examined the legal 
possibilities of doing that then?
    Ms. Josephson. Have we examined the legal possibilities?
    Senator Brownback. Yes. Of contracting for that 
information?
    Ms. Josephson. No, we have not looked at the possibilities 
of chartering for fishery data because we are charged with 
getting the fishery data. This is one of our major missions 
under the Magnuson-Stevens Act. So we would not be implementing 
the act if we----
    Senator Brownback. But acts are changeable, too----
    Ms. Josephson. Well, it has just been reauthorized this 
last fall.
    Senator Brownback [continuing]. If there are ways that you 
would look at and say that this would be more cost effective 
for us to do that. I am asking you to examine all options here 
that are available.
    Ms. Josephson. We have not looked at whether it would be 
more cost effective to contract for fisheries data, no.
    Senator Brownback. That is all I am asking you. Let us make 
sure we look at all ways, and if there are acts that need to be 
changed to do that, then I would hope you would bring that back 
in front of the Congress and say, now you guys may not want to 
do this, but this would be a less expensive way to collect the 
same information that we are interested in. Now you got to 
change the law because you have made us do it this way.
    Ms. Josephson. Yes.
    Senator Brownback. And I would hope you would feel free to 
bring those sort of things in front of the Congress.
    Ms. Josephson. Yes.
    Senator Brownback. You all have been very patient, and I do 
not mean to try to your patience. I am trying to figure out how 
we can do things as well and as inexpensive as possible. So if 
you have additional information you would like to submit for 
the record above and beyond the items that have already been 
submitted, I would be happy to receive those.
    Ms. Josephson. Right.
    Senator Brownback. Thank you for your patience and thank 
you for your time.
    Ms. Josephson. OK. And I wanted to give this to you for the 
record.
    Senator Brownback. Yes.
    The second panel will be Brian Logan, President of Photo 
Science, Incorporated; John Palatiello--I hope I pronounced 
that correctly--Executive Director of the Management 
Association for Private Photogrammetric Surveyors--pardon me 
for that. You may have to correct me. Ken Johnson, the chairman 
of University National Oceanographic Laboratory System. And 
this is a panel to look at some of the roles here again for the 
NOAA fleet.
    Thank you all, gentlemen, for joining us. Appreciate you 
being here. Your full statement will be put into the record. If 
you would like to summarize, we would appreciate that, and then 
have a chance to have a dialogue or even responding to some of 
the statements made by the earlier panel would be appreciated 
as well. Mr. Logan, President of Photo Science, Incorporated, 
the floor is yours.

  TESTIMONY OF BRYAN LOGAN,\1\ PRESIDENT PHOTO SCIENCE, INC., 
ACCOMPANIED BY JOHN PALATIELLO, EXECUTIVE DIRECTOR, MANAGEMENT 
       ASSOCIATION FOR PRIVATE PHOTOGRAMMETRIC SURVEYORS

    Mr. Logan. Thank you, Mr. Chairman. I would like to submit 
my statement, full statement, for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Logan appears on page 60 in the 
Appendix.
---------------------------------------------------------------------------
    Senator Brownback. So ordered.
    Mr. Logan. And in doing so, there are about three important 
issues that I would like to discuss here in the time available 
to me. First, there is an historic opportunity, I think, to 
realize significant savings for NOAA's program, and that means 
increasing its utilization of the private sector, and some of 
that came up during the previous discussion.
    In particular, the areas that I am going to discuss are for 
mapping, charting, and geodesy, which includes that word 
photogrammetry you just mentioned.
    Senator Brownback. Or tried to.
    Mr. Logan. Numerous studies including those in which NOAA 
has participated, requested and conducted, have concluded that 
contracting for surveying and mapping work is both feasible and 
desirable. Let me give you some specifics and examples where 
this can be accomplished. In aerial photography, NOAA operates 
and maintains aircraft and aerial cameras and crews at a cost 
which we believe is significantly greater than the private 
sector. Their aircraft makes and models are far in excess of 
what the private sector deems necessary to do the type of work 
that is being done. That does not mean to say that we are not 
taking safety precautions into account, etc. We believe in all 
the safety issues related to operating aircraft.
    NOAA's aerial cameras duplicate what the private sector has 
readily at hand, and according to the Inspector General's 
report, NOAA cannot adequately account for the cost of its 
aerial photography operations. Let me tell you that I can. My 
firm has been contracted for the first time to do such work in 
Miami, Florida, for NOAA. The work has not been totally 
completed to date due to adverse weather conditions. However, 
the comments that we have received relating to the work we have 
accomplished has been complimentary by all members of the NOAA 
technical personnel involved.
    I would like to mention at this point that the Corps of 
Engineers carries out an enormous aerial photography program 
throughout the country including the Caribbean and including 
South America or Central America each year, and they do this 
without one single aircraft of their own. All of their work is 
contracted successfully every year. U.S. Geological Survey 
carries out a similar operation without any aircraft of their 
own.
    In geodesy, which is surveying but taking into account the 
earth's curvature, NOAA is engaged, I believe, in competition 
with private firms by performing for States, often 100 percent 
reimbursed by the States, services otherwise available from 
private firms. For the program known as Supernet, NOAA has 
established a network of global positioning system survey 
control points, using the GPS constellation of satellites, in 
various States to create a high accuracy reference network with 
personnel and equipment dispatched from the Washington, D.C. 
area.
    These projects are funded throughout cooperative agreements 
between NOAA and the individual States, and in fact, NOAA has 
some personnel out at the State level working with State 
Government to promote these programs. I personally fell fall of 
this situation recently or now it is a few years back, I 
suppose, in Vermont, where I developed a statewide network only 
to have NOAA take the project away from me and undertake it 
themselves.
    Some discussion went on earlier about hydrographic 
surveying or nautical charting. This area is an initiative of 
the Vice President's National Performance Review. The capacity 
and capabilities of the private sector is significantly greater 
than NOAA is utilizing at this time, as evidenced by the Corps 
of Engineers again, who used private firms extensively, not 
exclusively, but extensively for the work that they do. This 
exhibit, which John Palatiello has here, our executive 
director, is showing, is a project which my firm and another 
firm, Vernon F. Meyer and Associates in Louisiana, undertook 
for the Corps of Engineers. This is a hydrographic chart or 
hydrologic chart, to be exact, showing the depths of shipping 
channels in the Mississippi River between Arkansas and 
Mississippi.
    This contracting effort right here, we believe, can be 
parlayed into what NOAA requires on near-shore charting. And we 
believe will save the taxpayers considerable money. As this 
table from the Commerce Department Inspector General's report 
indicated, and I think this came up earlier, private ships work 
and operate and carry out this type of mapping at a much lower 
cost per mile than the NOAA's ships, as you can see from the 
chart.
    But despite a small increase in contracting, and there has 
been some contracting in this area, NOAA is still spending 
taxpayers' money to operate its own vessels and upgrade its 
ships with new equipment, and, in fact, a lot of the equipment 
that they are looking for right now would compete extensively 
with firms who do this type of work. I personally do not do 
this type of work, but those firms have this equipment, it is 
available, it could be utilized by NOAA if research or other 
work had to be done rather than buying the equipment and having 
that equipment standing by for their own purposes as they 
needed them. We can talk more about that later if you wish to.
    In photogrammetry, which is the process of taking precise 
measurement from aerial photography to produce maps, agencies 
again, such as the Corps of Engineers, the Geological Survey, 
the Forest Service, the Federal Highway Administration, and 
many others, have contracted out programs to obtain such 
services from the private sector. Until recently, NOAA had not 
contracted out this service. My firm, again, has been awarded 
one of NOAA's first photogrammetric contracts. This involves 
abstracting the coastline mapping from the aerial photography 
of the Miami project I previously mentioned. This small project 
is welcome, and I hope it will convince NOAA that this should 
be the standard approach for obtaining this type of mapping in 
the future. NOAA needs to set an aggressive contracting program 
for this type of work.
    There are significant portions of NOAA's aeronautical 
charting program that can be performed by the private sector. 
As evidence, I would point to this digital State Aeronautical 
Chart produced by Bohannan-Houston, Inc. of Albuquerque, New 
Mexico, for the New Mexico State Department of Transportation, 
Division of Aviation. Again, this work is carried out within 
NOAA, and again we believe that the private sector is more than 
adequately staffed with equipment and technology and expertise 
to carry out this type of work.
    Congress has assured NOAA and other Federal agencies that 
it need not sacrifice quality when it comes to contracting with 
the private sector for surveying and mapping services. Under 
the Federal procurement law, contracts for surveying and 
mapping services are awarded on the basis of demonstrated 
competence and qualification, not the lowest bidder. In other 
words, value for money. This should eliminate any doubt about 
NOAA's ability to select a qualified contractor for these 
services.
    In recent years, Photo Science, my firm, has been fortunate 
to grow and expand at a greater rate than any time in its 42 
years of history. This growth is not only attributed to new 
market opportunities in Federal agencies, but by our ability to 
recruit highly qualified personnel from Federal agencies. As 
the Federal Government downsizes, we have created new private 
sector jobs for individuals from the USGS, from the Corps of 
Engineers, from NOAA itself, the Tennessee Valley Authority, 
the Defense Mapping Agency, now known as NIMA, and we pride 
ourselves on our ability to assure a soft landing for former 
Federal employees. Photo Science is not alone in this effort. 
Many of the MAPPS member firms are also experiencing record 
growth, and many are joining me in the recruitment and the 
retention of former Federal employees.
    So with downsizing government a reality, I strongly believe 
that contracting out should happen faster, and if I have one 
additional comment today, that is that it is not happening fast 
enough. We are talking a lot about doing additional 
contracting, but it is just not happening. Some small projects 
are coming out, but they are not coming out in the volume that 
I believe that they should, and that really brings in another 
problem, and that is that we really cannot staff up for a 
program when we are not sure what the program is going to be. 
There is not yet a relationship built between NOAA and private 
sector the way we have with some of the other agencies, where 
we discuss in detail projects coming further down the line so 
that we can staff accordingly to ensure the work gets done in a 
concise and rapid manner.
    It is very hard to turn around work when you do not know 
what is coming and then suddenly something happens. Work is 
requested, and you have not been given the ability to staff 
accordingly. NOAA has taken some initial steps towards 
contracting, but as I say, they have only yet begun to scratch 
the surface. The percentage of their work still performed in-
house versus contract is small. They have learned to talk about 
contracting, but the amount of work, as I said earlier, is 
still pitifully small. In their favor, however, I should say 
that they have started to contract more. They are now at about 
25 percent of the work be contracted in this fiscal year, and 
this is to their credit because only 3 years ago, just 1 
percent of their work was contracted.
    However, when you compare it to the other agencies, such as 
the USGS, the Corps, the Navy and the Air Force, it compares 
not that favorably because they are already at 70 percent of 
contracting out for this type of service. NOAA has, and I must 
say this, accomplished valuable work in establishment of 
professional and technical standards, carrying out joint R&D 
and funding administrative grants, etc., for other services 
that are intrinsically governmental in nature and not 
competitive to the private sector. It is not, however, the 
proper role of the government to perform activities that are 
commercially available in the private sector. NOAA should 
reinvent, refocus, redefine into such roles as setting 
standards, conducting basic research, and in conjunction with 
the private sector, applied research, and such research, I 
believe, should be promptly moved into the private sector as 
soon as it is commercially established and available.
    I know that this work can be done because my firm has 
benefited from joint research and small production contracts 
from NOAA. There could and should be more such activity within 
NOAA, as I previously said. I believe that if NOAA and the 
other Federal agencies were to fully utilize the private sector 
surveying and mapping resources, organizations such as mine 
could triple in size. I could easily grow to 500 people with a 
corresponding increase in tax revenues for the Federal 
Government.
    Our great free enterprise system is based on the laws of 
supply and demand. The Federal Government should not be the 
supplier of mapping, but it should be the demand for mapping 
when there is a public interest to be served. To remedy this 
situation, we recommend that the Congress take and enact S. 
314, the Freedom from Government Competition Act, introduced by 
Senator Thomas of Wyoming, and of which you are an original co-
sponsor, Mr. Chairman. This bill would establish a process by 
which the Office of Management and Budget will identify 
government activities that are commercial in nature and 
implement a plan to contract those activities to the private 
sector. With specific regard to surveying and mapping, evaluate 
all NOAA programs in order to determine mapping that can be 
commercially provided. Spending on these programs should be 
eliminated in order to empower market forces to provide the 
mapping, and redirect NOAA to those aspects of mapping, to 
those functions and to those responsibilities that are more 
appropriate for government, as I have mentioned earlier. Thank 
you, Mr. Chairman, for this opportunity to share our views, and 
I would be happy to answer any questions.
    Senator Brownback. Thank you, Mr. Logan. I appreciate that, 
and I appreciate the work you are doing. All those taxes you 
are paying are really helping out.
    Mr. Logan. I thought that that would be appreciated in this 
particular establishment. [Laughter.]
    Senator Brownback. Mr. Johnson, as chairman of University 
Laboratories branch here, we have heard some discussion of your 
group already. We will put your statement in the record, so if 
you would just like to discuss it with me, I would appreciate 
that as well.

   TESTIMONY OF KENNETH S. JOHNSON,\1\ CHAIRMAN, UNIVERSITY-
            NATIONAL OCEANOGRAPHIC LABORATORY SYSTEM

    Mr. Johnson. OK. Could I read a brief synopsis of my 
statement?
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears on page 69 in the 
Appendix.
---------------------------------------------------------------------------
    Senator Brownback. Yes, please feel free. The choice is 
yours. I like to do these as informally as possible. You have a 
lot of good information, and if you want to boil it down, then 
I really would like some good discussion on what you heard from 
the last panel and your reaction of, ``yes,'' this is accurate 
or, ``no,'' I really do not agree with this.
    Mr. Johnson. OK. I do appreciate, Mr. Chairman, the 
opportunity to testify on behalf of the University-National 
Oceanographic Laboratory System. My testimony regards the 
interactions of the UNOLS fleet of oceanographic research ships 
with the National Oceanic and Atmospheric Administration. I do 
this in my capacity as chair of UNOLS, which is an organization 
of 57 academic institutions and national laboratories from 27 
States. I will just summarize the structure of UNOLS, the 
status of our fleet and our current operations before I discuss 
the NOAA-UNOLS interactions and the services that the academic 
research fleet can and does provide to NOAA.
    UNOLS institutions conduct ocean science research and 
education programs, and they may operate oceanographic research 
vessels. We are joined for the purpose of coordinating 
oceanographic ship schedules and research facilities to 
maximize their efficient use. This coordination is governed by 
one simple reality: Every extra dollar used to support ships is 
one less dollar for science. UNOLS ensures cost effective 
access to the ocean for all of the Nation's scientists. UNOLS 
is now in its 25th year as the world leader in oceanographic 
facilities. The 27 research vessels in UNOLS fleet stand as the 
largest and most capable fleet of oceanographic re- 
search vessels in the world. It is a substantial national 
asset. There are five, soon to be six, large Navy-owned, 
university-operated ships in the fleet, eight UNOLS vessels 
that are owned by the National Science Foundation, and the 
remaining 14 ships are owned by State and private institutions.
    The UNOLS fleet is utilized by scientists from all of the 
States and many institutions beyond those that are UNOLS 
members. These seagoing facilities provide the platforms in 
which the bulk of American oceanographic research is performed. 
The UNOLS fleet is generally in its best condition ever. We are 
nearing the completion of a decade that will see about $200 
million in capital improvements to the fleet that have been 
funded by the Navy, by the National Science Foundation, by 
various State governments, and by private institutions. We are 
very grateful for the support of Congress and all of these 
organizations. This support will ensure that American 
scientists can collect the data needed to manage the oceans 
wisely.
    As a result of this support, all of the large Class I ships 
in the fleet are new or they have undergone major mid-life 
refits. Most of the intermediate ships have undergone major 
mid-life refits during the past 5 years. Significant upgrades 
to several small coastal vessels have just completed or will 
soon begin. However, with a projected lifetime of 30 years for 
an oceanographic vessel and 27 ships in the fleet, we must 
continue to plan for modernization and new construction at a 
rate of nearly one a year. Funds have been appropriated by 
Congress for a new Navy-owned ship to replace the aging Moana 
Wave. New ships to serve coastal research in Alaskan waters and 
mid-Atlantic waters will soon be required to replace the oldest 
ships in the fleet.
    The fleet itself supports research that is funded by a 
variety of State and Federal agencies. The National Science 
Foundation has provided the greatest amount of support, more 
than 60 percent of the total. The Office of Naval Research and 
NOAA are also substantial users of the fleet. The fleet is 
projected to operate for 4,900 days in 1997 at a cost of about 
$50 million. The fleet typically operates throughout the 
world's oceans but most operations are off the U.S. coast. 
Owing to some declines in Federal budgets and the delivery of 
new ships, the UNOLS fleet has some excess capacity. This 
increases the daily rate for ships in the fleet that do not 
have full schedules because fixed annual costs must be spread 
over fewer days.
    We have, therefore, sought out other Federal and State 
agencies to utilize the substantial national asset in order to 
optimize operational costs. These interactions reduce the cost 
of ship time to all of the agencies that use the UNOLS fleet 
including NOAA. Our interest has not been in displacing the 
oceanographic fleets of other agencies, but rather in 
supplementing them. We are poised to be able to do this easily 
and cost effectively. A significant feature of the 1997 
schedule, for example, is the addition of 393 operating days 
for the Naval Oceanographic Office. The work with NAVO was one 
example of our effort to find new partners for the UNOLS fleet.
    NOAA is another agency to which UNOLS ships have 
traditionally provided seagoing support. NOAA has three primary 
missions requiring ships, surveying for coastal charts, 
fisheries assessment, and research. Our interactions have been 
mainly with the NOAA Office of Ocean and Atmospheric Research, 
OAR, which is the primary research office at NOAA. OAR performs 
research and monitoring that is very compatible with the 
capabilities of UNOLS ships.
    As NOAA has begun to retire the oldest ships in their 
fleet, the UNOLS fleet has provided increased support to NOAA, 
especially OAR. NOAA will use about 337 operating days during 
1997 in the UNOLS fleet at a cost to NOAA of about $3.5 
million. This will be their highest level of participation in 
the last 5 years. In recognition of the need for NOAA to find 
access for the scientists to the sea and the desire of UNOLS to 
find other Federal agencies to support the fleet, we are 
developing a memorandum of understanding between NOAA Office of 
Ocean and Atmospheric Research and UNOLS. Major points of the 
proposed MOU include the following:
    The new NOAA research vessel Ronald Brown will enter the 
UNOLS ship scheduling process. NOAA will provide funding 
equivalent to that required for annual operation of the Brown. 
Some of those operations, of the NOAA operations, will be on 
the Brown and some will be on UNOLS vessels to take advantage 
of the distribution of the UNOLS fleet as Diana Josephson 
mentioned. UNOLS scientists will be scheduled on the Brown when 
it is not performing NOAA work and when and if it is cost 
effective to do so. This is the cost comparison that Diana 
Josephson mentioned. This will provide NOAA with much greater 
flexibility in scheduling ship time as a single ship cannot 
meet their multi-ocean requirements without conducting 
excessive transits.
    Academic scientists will have access to the specialized 
atmospheric research capabilities of the Brown as well as its 
general purpose capabilities. In order to equitably trade days 
among ships of different sizes, NOAA will account for the 
operational costs of the Ronald Brown on a similar basis to 
that used by NSF and ONR. In addition to the equivalent of 1 
year of ship time to support the Brown, NOAA will also 
outsource approximately $2.6 million per year in ship 
requirements which is about half the annual cost of a large 
ship. OAR will present these requirements first in the UNOLS 
scheduling process to see if we can meet them.
    Under the proposed MOU, UNOLS will provide approximately 20 
to 25 percent of the $12.9 million that OAR spends annually for 
ship time. While the Brown will be scheduled in the UNOLS 
process, it will remain a NOAA ship. If necessary, most or all 
of the NOAA OAR research could be conducted on ships of the 
UNOLS fleet.
    The largest requirement for ship time within NOAA is at the 
National Marine Fisheries Service. They budget $25 million into 
fiscal year 1995 requests for ship time to support their 
operations. The Fisheries Service work is divided into three 
major categories: Fish stock assessments, marine mammal 
surveys, and fisheries oceanography. Their work requires two 
types of ships, fisheries vessels capable of towing large trawl 
nets for stock assessments and general purpose oceanographic 
vessels for the mammal surveys and fisheries oceanography. The 
UNOLS fleet does not now have ships with the capability to tow 
large trawl nets although several univer- 
sities have expressed an interest in operating such ships. Most 
of the remaining Fisheries Service work, approximately one-
third, can be performed in ships of the type in the UNOLS 
fleet. The UNOLS fleet already has provided some support for 
NOAA fisheries oceanography programs.
    The NOAA National Ocean Service is responsible for 
collecting the bathymetric data needed to produce navigational 
charts. Most of their requirements for time at sea, 
approximately $14 million, are in support of these charting 
operations. I believe that the general purpose ships of the 
UNOLS fleet are not well prepared to meet the rigorous legal 
and technical requirements of this work. It is best suited to a 
dedicated type of ship. The NOS, National Ocean Service, does 
conduct a coastal ocean program that studies safety issues such 
as hazardous algal blooms. The UNOLS fleet could, if necessary, 
provide ships for these programs.
    While the UNOLS fleet can supplement the ship requirements 
of NOAA OAR and the National Marine Fishery Service, we do not 
have enough excess days available in the fleet at the current 
time and the current size of the fleet to replace all of their 
requirements. If the UNOLS fleet is fully utilized, it can 
provide about 6,000 operating days at its current size. With 
4,900 days of operation scheduled in 1997, there is an excess 
capacity of about 1,000 days. That is equivalent to maybe 3 to 
4 ship years or 17 percent. However, scheduling conflicts 
essentially prevent full utilization of the fleet. There are, 
for example, many more requests for ship time during summer 
than winter to take advantage of better weather conditions and 
to study the most active biological systems. It is also 
necessary to periodically take ships out of service for 
maintenance periods. These conflicts make the last 10 percent 
or 500 days of fleet capacity very difficult to utilize. More 
time may become available if access to the UNOLS fleet allows 
the Naval Oceanographic Office to reduce their backlog of 
survey requirements. The total excess, though, is going to 
remain somewhere in the neighborhood of 1,000 days, which would 
be approximately one-third of NOAA's seagoing requirements.
    In summary, the UNOLS fleet represents a substantial 
Federal asset that can provide support to many agencies. We 
welcome the chance to supply the support, as it can provide 
educational opportunities for ocean science students, and it 
does reduce the ship operation costs to all of the agencies 
involved. As one aspect of this, we are committed to building a 
strong partnership with NOAA. We have worked closely with NOAA 
to provide support to their seagoing scientists in the past. We 
expect to interact even more closely in the future as the 
Ronald Brown enters the UNOLS ship scheduling process. Thank 
you for the opportunity to provide this information.
    Senator Brownback. Thank you, Mr. Johnson. I understand Mr. 
Palatiello--do I say that right?
    Mr. Palatiello. Yes.
    Senator Brownback. You do not have a written statement; is 
that correct?
    Mr. Palatiello. I apologize. I think I miscommunicated with 
your staff. I was invited to testify, but I thought it would be 
more appropriate to have one of our members and practitioners 
so Mr. Logan made our statement.
    Senator Brownback. OK. Good.
    Mr. Palatiello. I will be happy to help answer any 
questions.
    Senator Brownback. I need to take about 5 minutes, if I 
can, right now. We have a development on the CWC that I need to 
be apprised of. If you would indulge me for a 5-minute recess, 
panel members. Feel free to do whatever you need to, but then 
we will reconvene in 5 minutes. Thank you.
    [Recess.]
    Senator Brownback. So much for a 5-minute recess. In a 
congressional break here, do not go by how we tell time. Sorry 
for that. It is just that we are involved in the Chemical 
Weapons Treaty, and that is a very pressing issue, and so I 
apologize for that. If I could ask you a couple of questions, 
and I appreciate all of your testimony and your time coming in. 
Mr. Logan, are you familiar with all the NOAA fleet does, 
everything that the NOAA fleet does?
    Mr. Logan. No, I am not. I have a very specific view of 
NOAA and that is really to do with mapping, from aerial 
photography through mapping and charting. The work that they 
are doing with the rest of the fleet, I think this gentleman 
here is more involved with. So we are very focused on one 
particular part of it.
    Senator Brownback. OK. Does your organization, is it 
familiar with everything that NOAA does?
    Mr. Palatiello. Not everything, Mr. Chairman. Our members, 
as Mr. Logan indicated, are involved specifically with regard 
to the charting, the hydrographic charting. The fisheries work, 
the oceanographic work, is not part of our purview, so it is 
only a third of the oceangoing activities that we are familiar 
with.
    Senator Brownback. OK. Mr. Johnson, you are familiar with 
all what NOAA does?
    Mr. Johnson. Fairly, yes. I have general acquaintance. I am 
very familiar with their oceanographic research, somewhat 
familiar with the fisheries, and the charting and so on I just 
look at from a distance. We do not in the university do that 
explicit kind of work. In exploring some of the things that we 
could do, I have familiarized myself with some of their 
capabilities, so I have general familiarity.
    Mr. Logan. I think together we know exactly what they do.
    Mr. Johnson. Yes.
    Senator Brownback. We are going to try to make that 
combination. Mr. Logan, in the areas that you work in that NOAA 
also works in, can you provide 100 percent of their needs in 
those areas of the private sector?
    Mr. Logan. Absolutely, yes.
    Senator Brownback. There is no doubt in your mind about 
that?
    Mr. Logan. Absolutely no doubt in my mind that the 
membership of this organization can and could and should be 
supplying that. The only thing that we believe that NOAA should 
be doing is setting standards for the specifications of the 
work that we are doing. They could be doing basic research in 
our area of science, and then doing applied research along with 
the private sector to take that applied research as it becomes 
commercial into the private sector, and I have the experience 
of doing that, and it works very well, but the problem we see 
with NOAA is we get this little tiny piece of it, sort of the 
crumbs that fall off the table, and we never seem to be able to 
get the momentum up to really do what the other agencies have 
been managing to do in the last number of years, and that is 
going from relatively little contracting to a large amount of 
contracting.
    Senator Brownback. You are saying they are 25 percent of 
contracting. The rest are at 70 percent?
    Mr. Logan. They are at 25 percent right now. At least that 
is what their proposal is, 25 percent, but if you look at some 
of the contracts that they have already let this year, they 
have actually put a hold order on those because they say they 
do not have the funding anymore to do them. So, in fact, I am 
not sure what the final number will be because some contracts 
were let and now there is a hold on those contracts.
    They say that they do not have the funding. This is an 
issue--while you were out we were talking about this, saying 
that they cannot contract because they have been downsizing, 
and the government takes, the Congress takes this money away 
when they downsize and they have no money left to contract 
with. So I mean we are standing there saying, well, how can 
that be? I mean there must be some funds in your budget that 
allows you to contract, but they say no. So we do not know 
where that funding is going, but it is certainly not going into 
contracting right now.
    Senator Brownback. Can you provide it on a cost competitive 
basis with the current NOAA fleet, and you heard the Under 
Secretary, the Deputy Under Secretary comment about, well, yes, 
we have bid these out, but they are not competitive.
    Mr. Logan. Yes. I think if you look at the fact that most 
of the other agencies have gone forward and contracted and must 
believe that they are getting value for money or they would not 
be doing that, I do not see why NOAA who has similar needs 
would be any different than those other agencies. And when I 
see the work that they do, it has got to be more cost 
effective. In our testimony that was entered for the record, 
you will see a project that was for some relatively small piece 
of flying in Alaska, and they actually mobilized an aircraft 
from Florida to go to Alaska to do that flying. Now if you can 
tell me that that is a cost effective way of doing work, I 
would like to know because I could certainly utilize it in my 
organization. I mean it is just not a cost effective way to do 
it. We have a member firm in Alaska who is approximately 100 
miles, based 100 miles from that particular project with 
aircraft capable of doing the work. So those are the sort of 
examples that we have.
    Senator Brownback. What about her figures or the figures I 
gave you about the cost per day of operating the NOAA ships 
that range on the upper end at $21,000 per day to $8 to $9,000 
per day. Is that competitive? How does that compare to your 
numbers?
    Mr. Logan. Well, I do not know about the ships, but let me 
tell you something about the aircraft. We fly aircraft that are 
more than capable of doing the work required but our running 
costs would be approximately a third of one of the jets that 
NOAA flies. NOAA flies an actual jet to take photography, a 
full-blown jet. We fly either turboprops or piston aircraft. 
When I say we, I mean our association, our member firms, and 
there is just no way that you can compete with that because it 
is not that they are flying vast areas. They are actually 
flying quite difficult tidal areas which is not a vast amount 
of flying. It is just getting the right amount of weather, the 
right tide, etc., at the same time. So that cannot be an 
effective way of doing that.
    They tend to run three or four crew members per aircraft 
depending on the aircraft. The private sector runs two and 
sometimes one. So again, this has got to be a more efficient 
way of doing it, I would have assumed. But the actual cost of 
the ships, I would pass that over to my colleague here to----
    Senator Brownback. How does that compare to your fleet of 
ships in the cost?
    Mr. Johnson. A comparable sized ship in the UNOLS fleet, 
the $21,000 day would, I believe our most expensive day rate in 
1997 will be $18,000, somewhere between $17 and $18,000 per 
day. At the lower end, they range down to $3,000 per day. So at 
that rate, they are more expensive. $21,000 is higher, but what 
is that--20 percent or 30 percent higher.
    Mr. Palatiello. Mr. Chairman, let me just reinforce 
something that Mr. Logan pointed out. A cost per day is not 
something that I am familiar with, and I know in conversations 
I have had with folks from NOAA, they dispute the findings of 
the IG, but the IG did it on what I think is a more equitable 
way of doing a comparison and that is the cost per linear mile. 
And what they found is that the private ships are far more cost 
effective than NOAA's ships. Now, some areas you can do more 
linear miles per day than you can in other areas because of 
varying conditions and variables that play in, and I do not 
know how this would translate into a per day cost, but I think 
this is a pretty dramatic exhibit of the differences in the 
costs.
    Senator Brownback. And probably more accurate, what you are 
after is the mapping on a linear mile basis in that particular 
case.
    Mr. Logan. Yes. You could have a very good daily rate for a 
particular vessel, but if you are not getting anything 
achieved, what have you achieved?
    Senator Brownback. I have had days like that.
    Mr. Johnson. Yes, we all have.
    Senator Brownback. Mr. Johnson, you are saying that the 
fleet of ships you represent could do a lot more of the work 
that NOAA is doing, but not all of the work that you know of. 
Now is that because of a lack of capacity on your part or is it 
a lack just of the technical expertise?
    Mr. Johnson. Well, a bit of each. We probably could do all 
of the oceanographic--we have enough excess capacity to do most 
of the oceanographic research. We do not have the actual hulls/
equipment to do the deep trawling that Admiral Stubblefield was 
referring to, the towing of essentially a commercial trawl net, 
very large net. Our ships have never been built to do that 
capacity. There has been sort of a gentleman's agreement that 
NOAA would do that, and UNOLS would do oceanography.
    Senator Brownback. Mr. Johnson, part of the things we have 
been doing in this Congress has been that as we move and we 
make, end the era of big government, somewhere down the line, 
and we are not there yet, is trying to project into time line, 
saying, OK, if we are going to make these transitions, if we 
are going to privatize the NOAA fleet operations, you need to 
give some time window for people to build up either the private 
or in your case other sides of the public sector.
    How much time window would we have to give to your 
organization, to others, to say, OK, we are going to 
decommission this fleet and there is going to be sufficient 
capacity in other places to do the same quality of work in a 
cost competitive basis? How much time?
    Mr. Johnson. I would say probably at a minimum close to 5 
years. In the UNOLS fleet, we typically start to plan a new 
ship in a 10-year process, but that is starting to build the 
case then at National Academy of Sciences, too, for the 
appropriation to go to Congress for the money and so on. To 
actually sit down and start to work on the design of the vessel 
and go around to the community, find out what it really needs 
to be able to do, it is a very critical process because the 
ships are expensive and you do not want to not build the right 
capabilities into it.
    Senator Brownback. And that is in the piece and the portion 
of NOAA that the private sector does not have current capacity 
in. Do you know how many of the NOAA ships are focused in that 
particular area?
    Mr. Johnson. I believe Diana Josephson said nine of the 
ships are doing deep trawling. I do not know that they actually 
use nine ship years. They often go off and do other things as 
well. They own nine now that are doing that kind of work. I am 
not sure. It might be maybe 5 or 6 actual years of work doing 
that, I think.
    Senator Brownback. Mr. Logan, how about the sector that you 
are familiar with in NOAA that you have worked on? How much 
transition time is needed for the private sector to tool up to 
be able to do that work?
    Mr. Logan. On the aerial photography side, I would say by 
9:30 this morning, we could have been ready to roll on that. 
That capacity is there throughout the country. It is there and 
ready to be used. On the mapping side and the charting side, I 
think it is just getting to understand and know the 
specifications and therefore allocating the personnel to it. If 
we know that these programs are going to be put in place, it is 
a matter of weeks or months at the most that we could be ready 
to do that type of work.
    On the geodesy side, it may take a little bit longer, but 
certainly I would say it is months and certainly not a year to 
get that moving. And so it is in all the areas that we work in. 
The capacity is there. It is more familiarization of what 
NOAA's standards and requirements are because we have not been 
able to build on those because we do not do that type of work 
for them.
    Mr. Palatiello. Mr. Chairman, let me embellish on Mr. 
Logan's comment. There are a couple of areas where I think it 
would take a longer transition. For example, there is not a big 
private sector market for hydrographic surveying today because 
it is dominated by the government, and government agencies are 
deploying their own ships. So there would be some transition 
time for firms in order to capitalize, to have the larger ships 
to go farther offshore and what have you. As Mr. Logan said in 
his prepared testimony, the Corps of Engineers is responsible 
for the inland waterway system. They do a huge percentage of 
that work. The last estimate I saw was something in the 
neighborhood of 40 percent--I think it is much more than 50 
percent now--of that work is done by contractors to the Corps 
of Engineers. It is very similar to work to what NOAA is doing 
offshore, although the more you go out into the ocean, the 
larger the vessel you would need, and so there would be some 
requirement for more capitalization on the private sector, and 
there would be a need for a transition period.
    But it is kind of the if you build it, they will come 
situation. If the private sector knows that there is going to 
be a market there, certainly they will make the capital 
investment to go after it. So on something like that, there 
would be a transition period. In regard to your earlier 
question about is the capacity and capability there? From a 
technical standpoint, the answer unequivocally is yes. There 
are other issues that I think NOAA would point to that are 
somewhat impediments to contracting today.
    First and foremost is liability both on nautical charting 
and aeronautical charting. We have had an honest difference of 
opinion with NOAA on these issues. They seem to not be able to 
handle this the same way the Corps of Engineers does, which is 
simple errors and omissions insurance. Right now on the 
nautical charting contracts, first, NOAA is requiring insurance 
that is not commercially available. Our members have gone to 
Lloyd's of London, and Lloyd's of London will not write the 
insurance that NOAA has put on the table in negotiations.
    Second, they are requiring that a NOAA officer go on the 
ship of the contractor in order to perform some quality control 
functions. That is not a particular problem. It is probably a 
good idea. Then third, is they are still insisting that they 
have to go out and spend millions of dollars on their own 
equipment to check the contractor's work. Well, I do not know 
how you check a contractor's work in nautical charting unless 
they are going to send their ship out with this equipment and 
remap the same area the contractor just did. We have heard the 
old expression about a belt and suspenders. Well, they have got 
a belt and suspenders and I do not know what else, but they 
have got three different sets of quality control they are 
trying to put on these contracts. They are saying the reason 
for that is because of liability.
    Well, it seems to me there is just not a can-do attitude 
about contracting. They seem to be putting this up as an 
impediment to contracting. They can indemnify their contractors 
if they desire. And as you pointed out in your questioning of 
Dr. Josephson, if they lack the legislative authority to 
indemnify, I haven't seen them come to the Congress and ask for 
the authority. Rather they are imposing all of these 
unattainable burdens on contractors. We have members that are 
sitting down negotiating with NOAA right now, and they are 
getting ready to walk away from the table because NOAA is 
asking them to present evidence of insurance that is just not 
commercially feasible.
    We were through this debate with them 10 years ago, and I 
can go through that story with you if you have a moment, but it 
was a deal killer 10 years ago. They did one of the cost 
comparisons you asked about. And they had a provision in at 
that time that said each contractor had to have $100 million 
worth of liability insurance in perpetuity so that if you did 
the survey today, and a ship ran aground 25 years from now, 
they wanted the contractor to be covered 25 years from now and 
have the insurance on a claims made basis. Well, again, we went 
to NOAA and said you have put this requirement in the contract. 
Clearly, you must have done some sort of market study to 
determine that this is something that a contractor can get. My 
members have been telling me they cannot get this insurance. 
And NOAA said, oh, yes, we have done a study, and that 
insurance is available, and we said, well, can you point us in 
the right direction because we cannot find it? And they said, 
no, you have got to file a Freedom of Information request. So 
we did, and the answer came back that the survey was conducted 
by telephone and no documentation existed. There was never any 
such survey conducted. That was put in, that was on one of 
these A-76 studies, and it was over, they said the activity 
stays in-house, there is no private sector capability, because 
they put in a provision that the private sector could not meet.
    On that particular cost comparison, they set that aside for 
small business. And no small business responded. So they said 
competition is over, the activity stays in-house. They never 
opened it up to larger firms. So these are the kinds of things 
that we have been going through with NOAA in terms of trying to 
go through cost comparisons, trying to do an analysis of 
private sector capability, and there seems to be more 
roadblocks than there is a desire to knock down the roadblocks.
    Senator Brownback. Of the areas you are familiar with NOAA 
operating, Mr. Palatiello, there is no doubt in your mind that 
the private sector if not immediately could quickly ramp up to 
meet those areas that you are familiar with in NOAA; is that 
correct?
    Mr. Palatiello. Unequivocally.
    Senator Brownback. And what areas do you contend you are 
not familiar with that NOAA is currently doing that you would 
be uncertain about that statement? Are there other areas?
    Mr. Palatiello. In terms of technical capability, in the 
areas that we have been discussing, it resides in the private 
sector. Again, there are some other issues like liability that 
might need to be worked through, but in terms of the technical 
competence of companies in the private sector----
    Senator Brownback. What about this trawling issue? I am a 
farm guy. Is there private sector capacity to do this?
    Mr. Palatiello. I think that is more Mr. Johnson's field 
than ours.
    Mr. Johnson. For the kind of work that NOAA is looking for, 
there is not, I think, a real direct equivalent to the NOAA 
ships out in the private sector right now. I believe that there 
are companies that would be interested in building if they knew 
that they had a long-term commitment.
    Senator Brownback. How long of a commitment do they need to 
have?
    Mr. Johnson. I have heard people say 5 to 10 years.
    Senator Brownback. That they would bid on it then?
    Mr. Johnson. Yes, sir.
    Senator Brownback. If they could get a 5 to 10 year 
contract?
    Mr. Johnson. Right. Yes, 10 years I think, I am quite sure 
you would see interest. Five years would probably be at the 
lower end.
    Senator Brownback. So Mr. Johnson, of the areas you are 
familiar with in NOAA, separate and distinct from Mr. Logan has 
spoken of, is it possible for the private sector to do this 
area?
    Mr. Johnson. It depends. I mean even in the case of 
research, we make the argument that you want to have the ship 
very closely tied to the institution because of the complicated 
requirements. One day you may be shining a laser up in the sky 
and 1 day a remotely operated vehicle that you are putting in 
the deep sea, and that requires kind of an internal flexibility 
that is tough to handle in a private contract. But I think that 
there are companies doing that kind of work. NSF does have one 
privately contracted, two privately contracted ships working 
for them that are working. So it should be, I guess, possible.
    Senator Brownback. And if you are interested basically in 
the platform, getting that from the private sector, versus in 
the actual pointing of laser up or other things being operated 
by your scientists?
    Mr. Johnson. Yes. Because the ship becomes an integral part 
of the science and that is what makes it a little bit 
complicated to handle the contractual details. It is rather 
like running a hospital, I suppose. I mean the whole thing ties 
together. You do not want to have multiple agencies handling 
different aspects of the operation.
    Senator Brownback. Do you have any doubt that if you 
offered a private company any of the operations within NOAA for 
a 10-year contract to provide the platform for this work, that 
you would get bids from private sector companies to do that?
    Mr. Johnson. You would get bids, yes, but with what NOAA 
can do as they have revamped their operation, there is only one 
way to find out.
    Senator Brownback. Has this been bid? And you are saying 
NSF has done some of it now?
    Mr. Johnson. Well, we certainly have done work for NOAA.
    Senator Brownback. Yes, but they have private companies----
    Mr. Johnson. Yes.
    Senator Brownback [continuing]. That have contracted for 
some of this research work that you are talking about?
    Mr. Johnson. Yes, they have.
    Senator Brownback. I think you mentioned two ships or----
    Mr. Johnson. Yes, the two ships, the icebreakers that work 
in the Antarctic, are run by a private firm, owned by a private 
firm, and then operate the charter under long-term contract to 
NSF.
    Senator Brownback. Do you know the name of that private 
firm?
    Mr. Johnson. Edison Chouest Offshore. I believe ECO.
    Senator Brownback. We may try to get that name and number 
just to pursue this. Anything else, gentlemen? If not, thank 
you very much for joining us. It has been most illuminating.
    The final panel will be Joel Willemssen, the General 
Accounting Office, and Joel Myers, President of AccuWeather. 
Thank you very much. Now who is my third gentleman here? Would 
you care to identify yourself?
    Mr. Rhodes. My name is Keith Rhodes, and I am a technical 
director in GAO's Office of the Chief Scientist.
    Senator Brownback. Very good. Thank you. Mr. Myers, I 
believe you have traveled in from Pennsylvania.
    Mr. Myers. Yes.
    Senator Brownback. I am delighted that you have joined us. 
Maybe you can tell us a little bit about what the weather is 
going to be like in Kansas when I get home, but more I would be 
interested obviously in NOAA and the National Weather Service 
and the issues there, and look forward to your testimony. The 
microphone is yours.

      TESTIMONY OF JOEL MYERS,\1\ PRESIDENT, ACCUWEATHER, 
                          INCORPORATED

    Mr. Myers. Thank you. I have submitted a copy of my 
testimony, and I would like to just today give a summary of 
those remarks and then be available for any questions.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Myers appears on page 78 in the 
Appendix.
---------------------------------------------------------------------------
    Senator Brownback. Very well.
    Mr. Myers. I am Dr. Joel Myers, founder and president of 
AccuWeather, Incorporated, one of the world's largest 
commercial weather information and forecasting companies, and 
chairman of the Commercial Weather Services Association. 
AccuWeather provides weather information and forecasts in a 
variety of formats for business, industry, government, and the 
general public. Our weather reports and forecasts can be heard 
on 500 radio stations across the United States, seen on 
hundreds of television stations, and read in thousands of 
newspapers and accessed millions of times a day on many of the 
popular news and weather Internet web sites.
    As a former professor at the Pennsylvania State University, 
I take personal pride in the knowledge that at the time I left 
teaching, I had helped train 17 percent of all the 
meteorologists practicing in the United States. Mr. Chairman, 
you and your colleagues may be surprised to learn that on any 
given day, 85 percent of the weather information and weather 
forecasts, making its way to the general public, comes from 
private commercial companies such as AccuWeather and private 
sector meteorologists.
    Much of the specialized weather information and forecasts 
needed by business, government and industry originates within 
the private sector. Absent the current competitive intrusion by 
the National Weather Service into the weather marketplace, the 
commercial weather industry could and would produce 100 percent 
of this country's specialized weather information and routine 
daily forecasts for public availability on radio, television 
and newspapers as well as on the Internet. The remarkable 
growth of the commercial weather industry has been achieved in 
much the same way as other high tech industries have grown and 
flourished, and that is through the ability to adapt to new 
technologies and to channel the innovative talents of highly 
skilled professionals to produce leading-edge, value-added 
products that are the envy of the meteorological world. As a 
result, AccuWeather and other commercial weather companies have 
a growing list of clients, both in the United States and around 
the world.
    Accurate and timely weather forecasts are demanded by 
almost every sector of the U.S. economy. Without a vibrant and 
healthy commercial weather industry, the cost of producing all 
of these products might fall to the government with a 
corresponding price tag that would greatly eclipse the current 
cost of the National Weather Service budget and operation or 
simply not be produced at all. A technologically advanced and 
financially strong weather industry is vital to the U.S. 
economy. Equally, a strong commercial weather industry is key 
to future downsizing within the National Weather Service and 
also to improve severe weather warnings by the Weather Service.
    The National Weather Service of today is a creature of the 
Organic Act of 1890. That act, passed 107 years ago at the dawn 
of the electronic revolution, created the U.S. Weather Bureau 
within the Department of Agriculture. The Weather Bureau has 
since become the National Weather Service within the Department 
of Commerce. It might have made sense in 1890 to give to the 
Weather Service a broad charge for making weather forecasts for 
the public and selected industries. After all, back then there 
was not a single commercial weather company.
    A commercial weather industry began after World War II and 
has over the past 50 years growth to include 100 companies in 
the U.S. and many more abroad. And the electronic revolution 
including the invention of radio, television, computers and the 
Internet was not part of the landscape back in 1890. The U.S. 
Government has spent hundreds of millions of dollars to 
modernize the NWS. But little effort has been given to 
modernize the National Weather Service charter to consider its 
function vis-a-vis the commercial weather industry.
    Some people have asked should we privatize the NWS? Should 
we contract out their functions? If by privatize, we are 
talking about selling off sections of the NWS to the private 
sector, the answer is no, we do not want to do that. If by 
contracting out, we are talking about taking some of its 
functions and contracting with commercial companies to perform 
those functions, I would say, no, we do not want to do that 
either. Neither of these actions is necessary. Why contract out 
functions that are already being performed in the private 
sector? Why privatize segments of the NWS that are simply 
duplicative of private sector efforts? The marketplace has 
already privatized much of what the NWS does, but the NWS 
continues activities that are no longer needed because they are 
carried out and carried out well by the private sector.
    What we should be doing, I believe, is moving the NWS out 
of those areas where it is no longer needed and reallocating 
National Weather Service resources to where they are needed: 
Improved severe weather warnings and system reliability. A 
staged and systematic pullback by the NWS is needed from three 
areas. They are (1) user specific services; (2) services 
targeted to specific industries; and (3) daily public forecasts 
such as ``partly cloudy today, 30 percent chance of showers, 
high in the mid 60s, sunny tomorrow, high in the low 70s.'' 
These are services that government need not provide. They are 
carried out very well by the private sector. Yet, a substantial 
portion of the NWS budget for personnel and related resources 
is devoted to these routine and duplicative activities which 
directly compete with the private sector.
    NWS budget cuts should be targeted to these duplicative and 
competitive areas, not critical areas like the Hurricane Center 
or severe weather predictions. And spontaneous new unbudgeted 
products such as those presently being put out on the Internet 
with disclaimers of unreliability should be prohibited. The 
core responsibilities of the National Weather Service are and 
clearly should be as shown on these charts. This is what they 
are doing now.
    Senator Brownback. I cannot read that. Could you read some 
of it to me? It is just too far away.
    Mr. Myers. Sure. In the core is the observation and data 
gathering.
    Senator Brownback. OK.
    Mr. Myers. That is the satellites and the radars and the 
ASOS and all the reporting stations. Then, two is the 
atmospheric modeling. That is the computer programs that take 
all this data and make the forecasts. And three is the severe 
weather functions. The observations and data gathering and the 
computer programs are needed in order to make the severe 
weather predictions. Then four is the broad generalized public 
forecasts I have been talking about. And 85 percent of that 
reaches the public and users now comes from the private sector. 
And five, the economic sector and industry services and user 
specific services are done by the private sector, and yet the 
National Weather Service in some places encroaches into those. 
So this is what we are suggesting should be the core function 
in black. It makes perfect sense, and four, five and six should 
be left to the private sector.
    Senator Brownback. Do you have any idea, Mr. Myers, of the 
percent of budget in each of those categories? Can we calculate 
that? Maybe it is not calculable.
    Mr. Myers. Well, I do not know. The only budget figures I 
have is it is not broken out, but it says local warnings and 
forecasts are lumped together, and on that line item it shows 
4,274 personnel, $418 or $451 million. My belief is that when 
you look at the Hurricane Center, you have 100 people or less. 
You look at the people needed to make severe weather warnings, 
flood warnings and such, you are looking at some other number 
of people, but it seems like the bulk of this budget is spent 
on putting out routine forecasts.
    Senator Brownback. Thank you. Please proceed.
    Mr. Myers. So what we are saying is that the three basic, 
one, two and three should be the core function. There is no 
question that doing away with other programs and forecasts 
which people and businesses have become accustomed to will 
cause expression of concern by those who are receiving these 
taxpayer supported services, but these services are available 
at very modest cost from private companies, and with a private 
supplier, the customer has many advantages including control 
over the timing of the services, the tailoring of the services 
to their specialized needs, and the National Weather Service 
should not be calling individual people to warn of an 
unexpected event. A private company can do that. And general 
public forecasts are available free to the public from private 
companies through all media outlets and the Internet right now 
supported by the outlets themselves and by advertisers.
    Taxpayers should not be asked to fund routine daily 
forecasts of ``partly cloudy today with a 30 percent chance of 
showers.'' Return- 
ing the NWS to its core mission will yield significant 
economies within the Federal budget, will contribute to the 
congressional initiatives, to reduce the size of government, 
will bolster an industry that employs people and pays taxes, 
and best of all, it will enhance severe weather warnings for 
the American public. In fact, if the National Weather Service 
budget was only modestly trimmed but their mission redirected, 
the United States could have a better severe weather warning 
system that would fulfill everyone's desires.
    As a step in the right direction, I fully support the 
initiatives to modernize the Organic Act of 1890 by Congress 
and by the Commercial Weather Services Association and others. 
Mr. Chairman, I believe the task at hand is straightforward: 
Change the Organic Act of 1890, refocus the National Weather 
Service on a set of core missions, including issuance of severe 
weather warnings to the public, remove the National Weather 
Service from private sector functions, and out of producing 
products that compete with those produced by the commercial 
weather service industry.
    If in 1997, we were starting out to create the National 
Weather Service for the first time and to draft the Organic Act 
from scratch, it is clear we would focus the newly created 
agency on the core missions that I have mentioned, and we would 
not request that the agency spend taxpayer dollars to duplicate 
services already available from the private sector. The 
National Weather Service should be praised for its great effort 
that it has put into modernization, the tremendous advances 
that it and the National Science Foundation and others have 
funded through research and atmospheric modeling that have been 
translated into significant progress in the quality and 
accuracy of both government and commercial weather forecasts.
    The National Weather Service leadership has shown vision in 
capitalizing on computer programming and enhanced predictions. 
The benefit from this should be a more intense focus on the 
core mission, improving the Nation's warning systems for 
hurricanes, tornadoes, flood, severe lightning, blizzards, 
etc., and the removal of the National Weather Service from 
those areas where it is not needed. If this was accomplished, I 
believe there would not only be enhanced general forecasts 
available to the public from commercial weather sources but 
better public severe weather and flood warnings from the 
government.
    There is no need for the National Weather Service to be 
producing free forecasts for business and industry. There is no 
need for NWS to be producing daily forecasts for people who can 
already turn on the radio or television and get a quality 
forecast paid for through the forces of the marketplace. Mr. 
Chairman, I know that this Subcommittee cannot pass specific 
authorizing or appropriating legislation. I, therefore, request 
that you and Members of the Subcommittee recommend to the 
Senate Commerce, Science and Transportation Committee, who will 
be considering an authorization bill for NOAA and NWS this 
session, that they consider and pass specific legislation 
similar to what was approved by the House of Representatives 
last session. I am referring to a provision attached to my 
testimony that was included in the 1996 NOAA authorization 
bill, H.R. 3322.
    I believe there is no doubt that the commercial weather 
industry is capable of meeting the remaining weather demands of 
the American public. Accordingly, I urge the Subcommittee to 
request a GAO study of the NWS with the objective of (1) 
focusing the NWS on a well defined core mission; (2) 
establishing the National Center for Environmental Protection 
as a single point source for all NWS warnings; (3) the 
elimination of general public forecasts; and (4) the 
elimination of forecasts for industry, for special interests, 
for end users and of value-added products.
    Mr. Chairman, it should be noted that while I am talking 
here about refocusing the NWS on a core mission, the NWS itself 
is going in the opposite direction. It is looking to expand its 
activities and intrude upon areas that the private sector is 
already actively engaged in. I believe if left alone, this 
trend will continue because the modernization program, which 
the public has funded, is leading to a very significant 
reduction in staff needs as modern technology takes over the 
work that previously was done by much slower technology or by 
hand.
    My message today is simple: Remove the NWS as a competitor 
to the commercial weather services industry, pull the NWS back 
to the borders of needed core functions, and allow the highly 
competitive market forces within the commercial weather 
industry and the public to produce the weather reports, 
forecasts and other products needed by industry, government, 
and the American people. Thank you.
    Senator Brownback. Makes sense to me. That was very good 
testimony, very interesting, too. Only wish we were on C-SPAN 
being broadcast so others could hear and see and have a chance 
to see the reasoning that you have put forward. We are at Mr. 
Willemssen----
    Mr. Willemssen. Yes, sir.
    Senator Brownback [continuing]. Am I pronouncing that 
correctly?. With the GAO. Be happy to receive your testimony 
and I would love to have some interaction, and I have some 
questions for you.
    Mr. Willemssen. OK.

    TESTIMONY OF JOEL WILLEMSSEN,\1\ DIRECTOR, INFORMATION 
  RESOURCES MANAGEMENT, ACCOUNTING AND INFORMATION MANAGEMENT 
DIVISION, U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY KEITH 
  RHODES, TECHNICAL DIRECTOR, OFFICE OF CHIEF SCIENTIST, U.S. 
                   GENERAL ACCOUNTING OFFICE

    Mr. Willemssen. Thank you, Mr. Chairman. Thank you for 
inviting us here to testify on the National Weather Service's 
modernization program. Mr. Rhodes is accompanying me today 
because of his in-depth expertise in computer and 
telecommunications issues. As agreed, I will give a brief 5-
minute summary of my statement and request that the full 
statement be inserted into the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Willemssen appears on page 91 in 
the Appendix.
---------------------------------------------------------------------------
    Senator Brownback. So ordered.
    Mr. Willemssen. At an estimated cost of about $4.5 billion, 
the Weather Service modernization program is one of the largest 
in the Federal Government. The modernization is critical to the 
Weather Service's plans for improving and downsizing 
operations. However, the program has faced persistent 
challenges that must be overcome if the full benefits of the 
modernization are to be realized. Our concerns with the Weather 
Service modernization have led us to place it on our list of 
high risk government programs.
    In implementing the modernization, the Weather Service has 
been acquiring new observing systems: Radars, satellites, as 
well as forecaster work stations. Implementation of most of 
these systems is nearing completion, and they have already been 
instrumental in providing some benefits in improved warnings 
and forecasts. Despite those improvements, however, the AWIPS 
system, which is designed to process and analyze the large 
volumes of data coming from those other systems, has had 
continuing delays and problems. this has prevented full 
utilization of the data coming from radars, satellites, and 
automated surface observing systems.
    The Weather Service's progress to date in resolving these 
problems has been mixed. We continue to be concerned about 
risks in the development of AWIPS, risks that will threaten the 
system's ability to be completed on time and within budget. 
Until AWIPS is deployed and functioning properly, the Weather 
Service will not be able to take full advantage of the nearly 
$4 billion that have already been invested in the modernization 
to date. With recent changes to the AWIPS program, 
significantly more design and development responsibility has 
been transferred to the government, in particular the Forecast 
Systems Laboratory.
    We have previously reported on our concerns and made 
recommendations on this lab's capability to produce software. 
Weather Service officials assure us that they intend to improve 
the government's development process and mitigate the risks of 
producing unstable and unreliable software. However, to be 
effective, these plans must be implemented. And even with full 
implementation of these risk mitigation plans, it is likely 
that unforeseen problems will result simply because of the 
complexity of this effort, problems that the current cost and 
schedule estimates do not account for. Therefore, it is 
imperative that top NOAA and Commerce managers acknowledge the 
likelihood of these unforeseen problems developing that will 
require more time and money than currently estimated.
    Mr. Chairman, for a moment, let me also turn to NOAA's 
acquisition strategy for another critical component of the 
modernization, the GOES satellite system. These satellites are 
positioned to observe the development of severe weather and 
provide information to forecasters to issue accurate and timely 
warnings. Current GOES satellites will begin to reach the end 
of their useful lives about 2002. Therefore, NOAA plans to 
purchase an interim series of two to four satellites quickly to 
prevent a gap in coverage as the current series runs out.
    We believe this strategy is fairly reasonable, given that 
there is not enough time to develop a new design. However, we 
are concerned that NOAA is not initiating an effort to develop 
a new satellite system for the longer-term future after this 
interim purchase of two to four satellites. We believe that the 
potential exists for improving the system and reducing costs in 
the long-term. A new design might better meet the evolving 
needs of forecasters and improve performance as well as reduce 
costs. Given that options may exist for NOAA to develop a 
significantly improved follow-on GOES system, the Congress may 
wish to closely examine the costs and benefits of different 
approaches for the timing, funding, and scope of the follow-on 
program.
    In summary, Mr. Chairman, we are supportive of the 
modernization program. It has made a lot of progress to date 
and many achievements, but there are still risks, in particular 
risks with the AWIPS system, and until we have that system up 
and running, we will not get the full benefits of the 
modernization. That concludes a summary of my remarks. Thank 
you.
    Senator Brownback. Thank you. Mr. Myers, how much 
information do you use from the National Weather Service in 
what you do in your services that you provide at AccuWeather or 
within the commercial weather service? Do you use any of their 
information, a lot of it, none of it?
    Mr. Myers. Yes, we use all of it we can get. We get data 
from private sources and government sources including the 
National Weather Service, but let me say that nothing special 
is done to it for us. It is much like Census data or economic 
data that economists get. It is data that the government has 
gathered for its own uses, and whatever they have for their own 
uses they make available, and we simply plug into it and take 
it in the format, whatever they have. Then we do a lot of 
massaging with it, add value to it. Our forecasters use it as 
the basis for making their forecasts that they then reissue.
    Senator Brownback. Now would that information continue to 
be available in your suggested redesign of the National Weather 
Service where they would focus back on core mission, as you put 
it, the observations and data gathering? You would continue to 
receive basically the same information you are receiving today 
you would suggest on your redesign of the NWS?
    Mr. Myers. Probably. I think it is important that the 
National Weather Service maintain control of the observations 
because that is at the core of all of the severe weather 
warnings that they would provide that the military uses for the 
basis of its forecasts, that the commercial side, television 
meteorologists, individual firms and so on, use as the basis of 
their forecasting as well as the National Weather Service 
issuance of severe weather warnings and advisories.
    So in other words, all these observations, radar pictures, 
satellite imagery, individual weather reports that the National 
Weather Service gathers and there is also reports that the FAA 
and the military gathers. There are ship reports at sea, there 
are reports from all the different countries from around the 
world, satellite imagery from other countries, all of this is 
fairly exchanged around the world, and it is available to just 
about anybody to plug into and get. The National Weather 
Service needs to have a good observational system in order to 
issue the warnings and the advisories that they put out.
    Senator Brownback. And you would continue that and indeed 
refocus maybe even greater emphasis in that category?
    Mr. Myers. I am not sure I----
    Senator Brownback. Are there more raw data needs than are 
being met, do you believe, by the National Weather Service in 
what they need to predict severe weather warnings, do some of 
these other things that are the sources for military 
predictions? Do they need more raw data?
    Mr. Myers. Well, I think this goes to these comments of how 
effective are the satellite observations? A couple years ago, 
we were down to one satellite. Certainly that threatens the 
forecasting in general around the country. So it goes to the 
modernization. The observations have to be of a certain 
quality. The radars have to be maintained. This is the core, 
the basis of all weather prediction, whether it is done by the 
military, whether it is done by the National Weather Service or 
the private sector.
    Senator Brownback. Mr. Willemssen, would you care to 
respond to that?
    Mr. Willemssen. Certainly. I think when the AWIPS program 
comes on line and is fully operational, there will be a 
tremendous escalation in the kind of benefits and the kind of 
data that will be provided to forecasters. You will have, I 
believe, 70,000 data sets that will come together from NEXRAD 
radars, automated surface observing stations, and also the 
satellites. As it stands now, forecasters have to take that 
information from each of the separate sources. It is not 
integrated and brought together. The other key thing that the 
AWIPS will give you is it will have additional decision-making 
support tools so that a forecaster does not have to do these 
tasks manually. Instead, it will be on the screen. So I think 
if we can get the AWIPS capability up and running, you will see 
a tremendous advance in the kind of capability, the kind of 
data, that is available.
    Mr. Myers. I might just add to that, though, with all due 
respect, the private sector has already done a lot of that and 
for a lot less money. For example, with respect to radars, the 
National Weather Service has all these individual radar sites 
all over the country, and they have 100 and some radar sites, 
and in each place they only have the data for that single radar 
and maybe one other. We bring all the radar data in from all 
the sites and combine it already. So we have a composite radar. 
When you watch television, you see a radar for the whole 
country. Well, that does not come from the National Weather 
Service. That comes from us and a couple of other companies 
like AccuWeather that take that data and have already figured 
out how to integrate it and take off the death rays and the 
donut holes and so on that are just spurious and make it 
available to the public or meteorologists who want to use that 
to make forecasts or to understand what the weather patterns 
are. So a lot of things the National Weather Service is still 
trying to do for tens of millions of dollars has already been 
done by the private sector for less.
    Senator Brownback. Do you think we do not need to continue 
with this modernization program or do you feel comfortable 
responding to that?
    Mr. Myers. Well, might I just say, could I just add one 
thing?
    Senator Brownback. Please.
    Mr. Myers. I wonder if we could put in the record the full 
text of my comments, the public-private sector agreement, 
published in The Federal Register in 1990. I forgot to mention 
this when I started. And a copy of the National Weather Service 
WeatherNet Internet sites, and I can supply all those to 
you.\1\
---------------------------------------------------------------------------
    \1\ The information supplied by Mr. Myers appears on page 110 in 
the Appendix.
---------------------------------------------------------------------------
    Senator Brownback. Yes, please, and it will be put in the 
record.
    Mr. Myers. Thank you very much. I think if we were starting 
over--I am not sure if it is still possible, but there probably 
should be many fewer National Weather Service sites.
    Senator Brownback. Than the 100 that are around?
    Mr. Myers. They have 117 or whatever. Originally back in 
the mid-1980's when they talked about that, they considered 
about having as few as 25 sites. We, for example, do 
forecasting for the whole country from one location. NWS 
hurricane warnings are done from one location in Miami. NWS 
severe storm forecasting for many years was done from one 
location in Kansas City. There is no need to have all these 
forecast centers all over the country. In fact, I have a report 
from the National Weather Service that clearly shows that the 
forecasters in each of these locations are not adding any 
significant skill to the basis of the forecast anyway.
    The average improvement in the local forecasts from the 
guidance that comes out of Washington, D.C. is 0.3 of a degree 
on average in the first period (first 12 hours) and nothing 
thereafter. And if you look at some of the other forecasters, 
the results are mixed throughout. So what has happened is the 
technology and the programming has gotten so far ahead and is 
doing what the individual forecasters used to have to do even 
10, 15 years ago, at the individual sites, but there has been 
so much improvement in the computer programs that take all this 
and make the forecasts that the individual forecasters, 
frustrating as it is to them, cannot really add much value or 
do not add any net value to those forecasts.
    Senator Brownback. So how many total NWS sites would we 
need across the country if you were redesigning the program 
today and to really emphasize and do a great job of severe 
weather forecasting for this Nation?
    Mr. Myers. Well, I have my own opinion, but I think there 
ought to be a study done. My opinion is you could do it all 
from one location just like we do it. If you have all the 
observations coming in, you can do it from the moon. You do not 
have to be able to look out the window to be able to forecast 
the weather. You can only see the weather 5 or 10 minutes away 
anyway.
    Senator Brownback. And we have how many different 
locations? You are saying 117 radar locations and how many NWS? 
Maybe you know, Mr. Willemssen?
    Mr. Willemssen. There are approximately 200 offices 
currently, and under the modernization plan the number of 
offices will go down to about 119.
    Senator Brownback. Do we need 119, Mr. Myers?
    Mr. Myers. Well, I am not sure it is for me to say, but in 
my opinion, no.
    Senator Brownback. Would you design it, if you were running 
it, with 119?
    Mr. Myers. No. You need the radars out there sending data, 
but you need the technicians on site to handle the radars and 
the same thing for the observational program, but it is really 
more efficient if it all comes in to one place and you have all 
the experts there.
    Senator Brownback. Is this the case of something that we 
designed in 1890 and then just have not really taken the time 
or had the political will to tackle redesigning of it?
    Mr. Myers. I think so.
    Senator Brownback. Mr. Willemssen?
    Mr. Willemssen. Well, there was some degree of will to try 
to reduce the number of offices. Part of the benefit of the 
modernization was to cut the number of offices by about half, 
not obviously by the amount that has been discussed here, and 
the other part of that was to cut the number of staff by 
approximately 21 percent. So to be fair to NWS, I would not say 
that it was ignored. It, based on the conversation here, may 
not have been as fully considered as some may wish, and frankly 
there are other considerations that go into those kind of 
determinations.
    Senator Brownback. How many total employees at NWS?
    Mr. Willemssen. There are approximately 5,000.
    Senator Brownback. How many at AccuWeather?
    Mr. Myers. About 310.
    Senator Brownback. I would be interested in your thoughts, 
of Mr. Myers' suggestion, of just concentrating really on the 
raw data collection, analysis of that, in particular focus on 
severe weather service. Do you think that is appropriate?
    Mr. Willemssen. I think that is an alternative, an option, 
that maybe should be considered to the extent that it is 
already out there. When we have looked at the AWIPS program, 
that is if it works, that is going to be a very powerful tool 
to forecasters. To the extent that it already exists, maybe 
that needs to be considered. If I may, I would like to ask my 
colleague to also amplify on that since he is very familiar 
with AWIPS capabilities.
    Mr. Rhodes.
    Mr. Rhodes. AWIPS takes a slightly different approach than 
has normally been made in looking at the sensor data. It goes 
down to the measurement data and does the graphical 
presentation in the workstation as opposed to accepting a 
product. If the government wants the Weather Service to 
continue to advance the state of the practice and the state of 
the art in atmospheric physics and meteorological science, 
then, yes, that does make sense. There are no technical 
impediments to, as Dr. Myers pointed out correctly, doing 
weather forecasting from the moon if you have the data.
    But it is not really a technical question if you are 
talking about jobs and what is most important, or the legal 
ramification of having a bad watch or warning sent out, or what 
is the liability impact of having a crop failure or bad weather 
destroy the crop in Florida without sufficient notice?
    Senator Brownback. Let us build on that statement a little 
bit because, if I am correct, you suggest that the redundancies 
that are built in the system--in other words, an on-the-ground 
capacity virtually in addition to the radar and the other data 
collections and satellites--are needed for severe weather 
forecasts? Am I correct in hearing you?
    Mr. Rhodes. Could you restate the question?
    Senator Brownback. Well, if I am hearing you correctly, you 
are saying we need this redundancy of many offices spread 
across the United States in case the radar information, the 
satellite information, is not sufficient?
    Mr. Rhodes. If the radar information and satellite 
information are not sufficient, and there are instances of very 
local weather phenomenon, which are some of the problem points 
in the decertification of Weather Service offices now, you have 
particular meteorological effects occurring in areas----
    Senator Brownback. Right. Tornadoes happen that way.
    Mr. Rhodes. Tornadoes, but it is not necessarily a tornado 
event. It is the front range effect off the Rocky Mountains in 
Colorado. It is the lake effect off of the Great Lakes. It is 
the frost effect in the San Joaquin Valley of California. Those 
are localized events that might necessarily take some more 
localized observation. Does that mean you need 119 offices, 
does that mean you need 200? I would have to echo Dr. Myers 
call for a study and Mr. Willemssen's call for additional 
analysis.
    Senator Brownback. Mr. Myers, would you care to respond to 
that comment?
    Mr. Myers. I think in the era of modern communication, if 
you have more observations on the front range or in the valley, 
it all can be fed across town or across the country with as 
much ease today, and it can come into a central location just 
as well as into a local weather office. Sometimes the local 
weather office is less equipped than a central office would be 
to handle that and integrate it into everything that is going 
on on a national scale. And those small effects are known as a 
result of studies and can be used whether you are there or not. 
Again, you cannot see those local effects out the window.
    Mr. Rhodes. The only thing I am thinking about, Doctor, is 
that in a case where I do issue a warning based on a 
mesocyclonic event coming in from the Doppler radar, but I 
still need ground truth somewhere. I mean I am still going to 
get with the county sheriff or somebody like that. That is not 
a weather office obviously, but there is some local observation 
requirement from the legal aspect. I can issue a watch. I can 
issue a warning, but I cannot really give you the exact ground 
direction of the progress of the tornado. I can give an 
approximation of where the air mass is moving and where the 
different layers are moving, but I cannot tell you that it is 
actually touched down until I get a response.
    Senator Brownback. But do you need 119 weather offices to 
tell you whether or not the tornado has touched ground, or do 
you need a network of being able to contact county sheriffs?
    Mr. Rhodes. Well, that is the other point on how you solve 
that problem because as Dr. Myers has pointed out, if the 
county sheriff in your home county calls the central office in 
wherever it may be, the warning can still be issued.
    Senator Brownback. This is most interesting. I have got to 
come back to one point, and then I will let you all go. 
National Weather Service, 5,100 employees, projecting to go to 
4,028, although the GAO reported last year that at least 61 
percent of the promised staff reductions will not materialize. 
Is that a correct statement?
    Mr. Willemssen. That is correct. I believe I recall in 
percentage terms the original reduction was going to be 21 
percent, and I think it is now 8 percent.
    Senator Brownback. AccuWeather runs nationwide operation 
with 300 employees, Mr. Myers?
    Mr. Myers. Yes. Worldwide operation with 310 employees and 
90 of those are meteorologists. I think the National Weather 
Service, if I could just comment, there has been tremendous 
progress made on the university campuses and within the 
National Weather Service itself in weather prediction, and 
because of that success, now there can be a significant 
reduction in the people necessary to carry out the function. 
Computers have been harnessed and once all these things are 
solved, however they are solved, with the modernization, the 
modernization is working, has worked, and so there can be a 
significant reduction in manpower and still very well do the 
core mission, and, in fact, if they focused on the core 
mission, I believe the warning, the accuracy of the warnings, 
the timeliness of the warnings, if there were not these other 
distractions, they were not looking for other things to do, 
would improve significantly. The private sector would flourish. 
The American public would have better warnings, and everybody 
would be the winner.
    Senator Brownback. It has always been my experience that if 
you focus on something, you tend to get it done better rather 
than if you are diffuse on a lot of things, and we have done 
that a lot in government, where we create something for a 
single purpose, then over the years, the Congress or 
administration or both say, well, you are good at this, but 
what about also this? And we would like for you to do that. And 
then they come back, and, well, we would like to do these 
things, and by the end of the day when you are on five missions 
instead of one you are not doing any of them really well, and 
you are forgetting your real core function, which is a lot 
about what I think a number of us were elected to Congress to 
do, which is to get back to basics and do what we should be 
doing better.
    So with that, I very much appreciate the panel. It has been 
very enlightening. I appreciate that and your input, and 
anything further you would have, please feel free to give us. 
With that, the hearing is adjourned.
    Mr. Willemssen. Thank you.
    Mr. Myers. Thank you, Mr. Chairman.
    [Whereupon, at 3:07 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] TH46.001
    
    [GRAPHIC] [TIFF OMITTED] TH46.002
    
    [GRAPHIC] [TIFF OMITTED] TH46.003
    
    [GRAPHIC] [TIFF OMITTED] TH46.004
    
    [GRAPHIC] [TIFF OMITTED] TH46.005
    
    [GRAPHIC] [TIFF OMITTED] TH46.006
    
    [GRAPHIC] [TIFF OMITTED] TH46.007
    
    [GRAPHIC] [TIFF OMITTED] TH46.008
    
    [GRAPHIC] [TIFF OMITTED] TH46.009
    
    [GRAPHIC] [TIFF OMITTED] TH46.010
    
    [GRAPHIC] [TIFF OMITTED] TH46.011
    
    [GRAPHIC] [TIFF OMITTED] TH46.012
    
    [GRAPHIC] [TIFF OMITTED] TH46.013
    
    [GRAPHIC] [TIFF OMITTED] TH46.014
    
    [GRAPHIC] [TIFF OMITTED] TH46.015
    
    [GRAPHIC] [TIFF OMITTED] TH46.016
    
    [GRAPHIC] [TIFF OMITTED] TH46.017
    
    [GRAPHIC] [TIFF OMITTED] TH46.018
    
    [GRAPHIC] [TIFF OMITTED] TH46.019
    
    [GRAPHIC] [TIFF OMITTED] TH46.020
    
    [GRAPHIC] [TIFF OMITTED] TH46.021
    
    [GRAPHIC] [TIFF OMITTED] TH46.022
    
    [GRAPHIC] [TIFF OMITTED] TH46.023
    
    [GRAPHIC] [TIFF OMITTED] TH46.024
    
    [GRAPHIC] [TIFF OMITTED] TH46.025
    
    [GRAPHIC] [TIFF OMITTED] TH46.026
    
    [GRAPHIC] [TIFF OMITTED] TH46.027
    
    [GRAPHIC] [TIFF OMITTED] TH46.028
    
    [GRAPHIC] [TIFF OMITTED] TH46.029
    
    [GRAPHIC] [TIFF OMITTED] TH46.030
    
    [GRAPHIC] [TIFF OMITTED] TH46.031
    
    [GRAPHIC] [TIFF OMITTED] TH46.032
    
    [GRAPHIC] [TIFF OMITTED] TH46.033
    
    [GRAPHIC] [TIFF OMITTED] TH46.034
    
    [GRAPHIC] [TIFF OMITTED] TH46.035
    
    [GRAPHIC] [TIFF OMITTED] TH46.036
    
    [GRAPHIC] [TIFF OMITTED] TH46.037
    
    [GRAPHIC] [TIFF OMITTED] TH46.038
    
    [GRAPHIC] [TIFF OMITTED] TH46.039
    
    [GRAPHIC] [TIFF OMITTED] TH46.040
    
    [GRAPHIC] [TIFF OMITTED] TH46.041
    
    [GRAPHIC] [TIFF OMITTED] TH46.042
    
    [GRAPHIC] [TIFF OMITTED] TH46.043
    
    [GRAPHIC] [TIFF OMITTED] TH46.044
    
    [GRAPHIC] [TIFF OMITTED] TH46.045
    
    [GRAPHIC] [TIFF OMITTED] TH46.046
    
    [GRAPHIC] [TIFF OMITTED] TH46.047
    
    [GRAPHIC] [TIFF OMITTED] TH46.048
    
    [GRAPHIC] [TIFF OMITTED] TH46.049
    
    [GRAPHIC] [TIFF OMITTED] TH46.050
    
    [GRAPHIC] [TIFF OMITTED] TH46.051
    
    [GRAPHIC] [TIFF OMITTED] TH46.052
    
    [GRAPHIC] [TIFF OMITTED] TH46.053
    
    [GRAPHIC] [TIFF OMITTED] TH46.054
    
    [GRAPHIC] [TIFF OMITTED] TH46.055
    
    [GRAPHIC] [TIFF OMITTED] TH46.056
    
    [GRAPHIC] [TIFF OMITTED] TH46.057
    
    [GRAPHIC] [TIFF OMITTED] TH46.058
    
    [GRAPHIC] [TIFF OMITTED] TH46.059
    
    [GRAPHIC] [TIFF OMITTED] TH46.060
    
    [GRAPHIC] [TIFF OMITTED] TH46.061
    
    [GRAPHIC] [TIFF OMITTED] TH46.062
    
    [GRAPHIC] [TIFF OMITTED] TH46.063
    
    [GRAPHIC] [TIFF OMITTED] TH46.064
    
    [GRAPHIC] [TIFF OMITTED] TH46.065
    
    [GRAPHIC] [TIFF OMITTED] TH46.066
    
    [GRAPHIC] [TIFF OMITTED] TH46.067
    
    [GRAPHIC] [TIFF OMITTED] TH46.068
    
    [GRAPHIC] [TIFF OMITTED] TH46.069
    
    [GRAPHIC] [TIFF OMITTED] TH46.070
    
    [GRAPHIC] [TIFF OMITTED] TH46.071
    
    [GRAPHIC] [TIFF OMITTED] TH46.072
    
    [GRAPHIC] [TIFF OMITTED] TH46.073
    
    [GRAPHIC] [TIFF OMITTED] TH46.074
    
    [GRAPHIC] [TIFF OMITTED] TH46.075
    
    [GRAPHIC] [TIFF OMITTED] TH46.076
    
    [GRAPHIC] [TIFF OMITTED] TH46.077
    
    [GRAPHIC] [TIFF OMITTED] TH46.078
    
    [GRAPHIC] [TIFF OMITTED] TH46.079
    
    [GRAPHIC] [TIFF OMITTED] TH46.080
    
    [GRAPHIC] [TIFF OMITTED] TH46.081
    
    [GRAPHIC] [TIFF OMITTED] TH46.082
    
    [GRAPHIC] [TIFF OMITTED] TH46.083
    
    [GRAPHIC] [TIFF OMITTED] TH46.084
    
    [GRAPHIC] [TIFF OMITTED] TH46.085
    
    [GRAPHIC] [TIFF OMITTED] TH46.086
    
    [GRAPHIC] [TIFF OMITTED] TH46.087
    
    [GRAPHIC] [TIFF OMITTED] TH46.088
    
    [GRAPHIC] [TIFF OMITTED] TH46.089
    
    [GRAPHIC] [TIFF OMITTED] TH46.090
    
    [GRAPHIC] [TIFF OMITTED] TH46.091
    
    [GRAPHIC] [TIFF OMITTED] TH46.092
    
    [GRAPHIC] [TIFF OMITTED] TH46.093
    
    [GRAPHIC] [TIFF OMITTED] TH46.094
    
    [GRAPHIC] [TIFF OMITTED] TH46.095
    
    [GRAPHIC] [TIFF OMITTED] TH46.096
    
    [GRAPHIC] [TIFF OMITTED] TH46.097
    
    [GRAPHIC] [TIFF OMITTED] TH46.098
    
    [GRAPHIC] [TIFF OMITTED] TH46.099
    
    [GRAPHIC] [TIFF OMITTED] TH46.100
    
    [GRAPHIC] [TIFF OMITTED] TH46.101
    
    [GRAPHIC] [TIFF OMITTED] TH46.102
    
    [GRAPHIC] [TIFF OMITTED] TH46.103
    
    [GRAPHIC] [TIFF OMITTED] TH46.104
    
    [GRAPHIC] [TIFF OMITTED] TH46.105
    
    [GRAPHIC] [TIFF OMITTED] TH46.106
    
    [GRAPHIC] [TIFF OMITTED] TH46.107
    
    [GRAPHIC] [TIFF OMITTED] TH46.108
    
    [GRAPHIC] [TIFF OMITTED] TH46.109
    
    [GRAPHIC] [TIFF OMITTED] TH46.110
    
    [GRAPHIC] [TIFF OMITTED] TH46.111
    
    [GRAPHIC] [TIFF OMITTED] TH46.112
    
    [GRAPHIC] [TIFF OMITTED] TH46.113
    
    [GRAPHIC] [TIFF OMITTED] TH46.114
    
    [GRAPHIC] [TIFF OMITTED] TH46.115
    
    [GRAPHIC] [TIFF OMITTED] TH46.116
    
    [GRAPHIC] [TIFF OMITTED] TH46.117
    
    [GRAPHIC] [TIFF OMITTED] TH46.118
    
    [GRAPHIC] [TIFF OMITTED] TH46.119
    
    [GRAPHIC] [TIFF OMITTED] TH46.120
    
    [GRAPHIC] [TIFF OMITTED] TH46.121
    
    [GRAPHIC] [TIFF OMITTED] TH46.122
    

                                  <all>
</pre></body></html>
